<html>
<title> - H.R. 3094, NATIONAL PARK CENTENNIAL FUND ACT; AND H.R. 2959, NATIONAL PARK CENTENNIAL CHALLENGE FUND ACT.</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
H.R. 3094, NATIONAL PARK CENTENNIAL FUND ACT; AND H.R. 2959, NATIONAL 
                  PARK CENTENNIAL CHALLENGE FUND ACT.

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS
                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, August 2, 2007

                               __________

                           Serial No. 110-39

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
37-136 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON NATURAL RESOURCES

               NICK J. RAHALL II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Chris Cannon, Utah
Frank Pallone, Jr., New Jersey       Thomas G. Tancredo, Colorado
Donna M. Christensen, Virgin         Jeff Flake, Arizona
    Islands                          Stevan Pearce, New Mexico
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Luis G. Fortuno, Puerto Rico
Madeleine Z. Bordallo, Guam          Cathy McMorris Rodgers, Washington
Jim Costa, California                Bobby Jindal, Louisiana
Dan Boren, Oklahoma                  Louie Gohmert, Texas
John P. Sarbanes, Maryland           Tom Cole, Oklahoma
George Miller, California            Rob Bishop, Utah
Edward J. Markey, Massachusetts      Bill Shuster, Pennsylvania
Peter A. DeFazio, Oregon             Dean Heller, Nevada
Maurice D. Hinchey, New York         Bill Sali, Idaho
Patrick J. Kennedy, Rhode Island     Doug Lamborn, Colorado
Ron Kind, Wisconsin                  Mary Fallin, Oklahoma
Lois Capps, California               Kevin McCarthy, California
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                   Jeffrey P. Petrich, Chief Counsel
                 Lloyd Jones, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                  RAUL M. GRIJALVA, Arizona, Chairman
              ROB BISHOP, Utah, Ranking Republican Member

 Dale E. Kildee, Michigan            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Chris Cannon, Utah
Donna M. Christensen, Virgin         Thomas G. Tancredo, Colorado
    Islands                          Jeff Flake, Arizona
Rush D. Holt, New Jersey             Stevan Pearce, New Mexico
Dan Boren, Oklahoma                  Henry E. Brown, Jr., South 
John P. Sarbanes, Maryland               Carolina
Peter A. DeFazio, Oregon             Louie Gohmert, Texas
Maurice D. Hinchey, New York         Tom Cole, Oklahoma
Ron Kind, Wisconsin                  Dean Heller, Nevada
Lois Capps, California               Bill Sali, Idaho
Jay Inslee, Washington               Doug Lamborn, Colorado
Mark Udall, Colorado                 Don Young, Alaska, ex officio
Stephanie Herseth Sandlin, South     Kevin McCarthy, California
    Dakota                           Don Young, Alaska, ex officio
Heath Shuler, North Carolina
Nick J. Rahall II, West Virginia, 
    ex officio


                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, August 2, 2007.........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     3
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     1

Statement of Witnesses:
    Baird, Hon. Brian, a Representative in Congress from the 
      State of Washington........................................     8
        Prepared statement of....................................     9
    Bomar, Mary A., Director, National Park Service, U.S. 
      Department of the Interior.................................    21
        Prepared statement of....................................    22
    Cipolla, Vin, President and CEO, National Park Foundation....    35
        Prepared statement of....................................    37
    Kiedaisch, Gary A., President and CEO, The Coleman Company, 
      Inc........................................................    39
        Prepared statement of....................................    41
    Kiernan, Thomas, President, National Parks Conservation 
      Association................................................    45
        Prepared statement of....................................    46
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana...........................................     3
    Tiahrt, Hon. Todd, a Representative in Congress from the 
      State of Kansas............................................     5
    Wade, John W. ``Bill,'' Chair, Executive Council, Coalition 
      of National Park Service Retirees..........................    51
        Prepared statement of....................................    53



 LEGISLATIVE HEARING ON H.R. 3094, TO ESTABLISH IN THE TREASURY OF THE 
    UNITED STATES A FUND WHICH SHALL BE KNOWN AS THE NATIONAL PARK 
CENTENNIAL FUND, AND FOR OTHER PURPOSES. (NATIONAL PARK CENTENNIAL FUND 
               ACT); AND H.R. 2959, TO ESTABLISH A FUND 
  FOR THE NATIONAL PARK CENTENNIAL CHALLENGE, AND FOR OTHER PURPOSES. 
             (NATIONAL PARK CENTENNIAL CHALLENGE FUND ACT)

                              ----------                              


                        Thursday, August 2, 2007

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:03 a.m. in 
Room 1324, Longworth House Office Building, Hon. Raul M. 
Grijalva [Chairman of the Subcommittee] presiding.
    Present: Representatives Grijalva, Bishop, Kildee, 
Christensen, Kind, Capps, Herseth Sandlin, Lamborn, and 
McCarthy.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Let me call the Subcommittee on National 
Parks, Forests and Public Lands to order.
    Today, we will hear testimony on two very important bills 
that have much in common. They both seek to commemorate the 
upcoming centennial of the National Park Service and to prepare 
the National Park System for its second century.
    I am pleased that there is bipartisan interest in 
recognizing this important anniversary and, more importantly, a 
common desire to invest in the future of our national 
treasures.
    We have three panels of distinguished witnesses. I want to 
welcome the panelists and thank them for joining us.
    Established in 1916, the National Park Service has grown to 
protect and interpret nearly 400 spectacular places across the 
country. Our National Parks welcome more than 270 million 
visitors each year and are a source of tremendous pride for all 
Americans. Our National Park Service, which employs more than 
20,000 passionate and professional employees, is a world leader 
in conservation and interpretation.
    As the centennial approaches, there is a consensus among 
policymakers and the American people that this milestone must 
be viewed as an opportunity to recommit ourselves to building a 
stronger, more diverse, better trained, and better equipped 
National Park Service.
    H.R. 2959
    Mr. Grijalva. In February, the administration proposed 
legislation to increase funding for NPS over the next decade, 
in recognition of the centennial. Two of our colleagues on the 
Subcommittee, Ranking Member Bishop and Full Committee Ranking 
Member Young, have introduced that legislation, by request, as 
H.R. 2959.
    H.R. 2959 establishes a Centennial Challenge Fund for 
private sector cash donations and provides a mandatory Federal 
match of up to $100 million. Money from the Challenge Fund, 
authorized for 10 years, will be spent on signature projects or 
programs broadly defined as ``any project or program identified 
by the director of the National Park Service as one that will 
help prepare the National Parks for another century of 
conservation, preservation, and enjoyment.''
    In my view, however, the administration's proposal is 
incomplete, most notably, in that it lacks a way to pay for the 
increased spending it proposes. Further, I remain troubled by 
the incentives created by the bill's matching requirement.
    H.R. 3094
    Mr. Grijalva. Therefore, Chairman Rahall and I introduced 
H.R. 3094, which authorizes mandatory spending expected to 
total $100 million a year for 10 years. Our legislation builds 
on the administration's proposal by establishing six specific 
areas on which this increased funding is to be spent. These 
areas include education and the parks, diversity programs, an 
environmental leadership initiative, professional development, 
resource protection, and capital improvements.
    This mix of funding priorities, investing in education, 
bricks and mortar, and human capital, will ensure that our 
parks and park employees can meet the challenges of the next 
100 years successfully.
    H.R. 3094 provides this new spending without requiring 
private matching funds. While we recognize the critical role 
private giving has played in creating and sustaining our 
National Park System, we remain concerned about the ever-
increasing reliance on private funds. This bill encourages 
private giving but makes it absolutely certain that NPS 
spending priorities are determined by Congress and the 
administration without regard to which projects might or might 
not be most attractive to private donors.
    Finally, H.R. 3094 is paid for. We are certainly open to 
discussing the funding mechanism, but we must be clear. Any 
centennial proposal must have an offset if it is to move 
forward.
    Again, I look forward to our distinguished witnesses today 
and thank them for their presence and thank them for their 
testimony.
    With that, let me turn to our Ranking Member, Mr. Bishop, 
for any comments he may have. Mr. Bishop.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. Thank you, Mr. Chairman. I am anxious to hear 
the testimony today. I know that Mr. Tiahrt and Mr. Souder do 
not want to listen to me, so we will jump right into what they 
have to say. I appreciate you coming before us.
    Mr. Grijalva. Thank you very much. Let me welcome our 
colleagues and thank them for taking the time to discuss this 
very, very important centennial anniversary and their ideas for 
it. Let me begin with The Honorable Mark Souder for your 
comments, sir.

   STATEMENT OF THE HON. MARK E. SOUDER, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF INDIANA

    Mr. Souder. Thank you, Mr. Chairman, and thank you, Ranking 
Member Bishop. There are a number of points I want to cover 
relatively rapidly here, and I would ask unanimous consent to 
insert a number of documents into the record.
    Mr. Grijalva. Without objection.
    Mr. Souder. Congressman Brian Baird and I, a number of 
years ago, introduced the Centennial Act, which had, in fact, 
somewhat of a combination of what the Chairman referred to in 
his opening remarks, which was an encouraging private sector 
giving and, at the same time, with target goals each year that 
the Federal government, through spending, would make up some of 
the gap of that difference.
    In that bill, Senators McCain, Feinstein and Alexander 
carried it in the Senate. In the House, we had strong 
bipartisan support, both from the conservative and the moderate 
flank of the Republican Party and all flanks of the Democratic 
Party. In fact, we tried to keep the sponsorships relatively 
even, and, at the end of the day, I think it was up to 55 or 
60, including a number of appropriators, which is unusual 
attention given to something that has increased funding in the 
National Parks area, particularly, quite frankly, in the 
Republican Party, we have not been as aggressive.
    Out of that, as the Chairman of the Government Reform 
Subcommittee that had oversight over the National Parks, we did 
nine oversight hearings, worked particularly with the National 
Parks and Conservation Association--Mr. Kiernan will be 
speaking later today--as well as the National Park Service and 
different friends groups.
    One of the documents I would like to submit in the record 
is the list of the nine hearings and the witnesses at those 
nine hearings, which outlined the challenges of the parks, the 
needs for the additional funding, and where, as we head into 
the centennial, we need to go. Each testimony is available on 
the Web site, and I would like to insert the hearing record, 
where they are and how people can find that.
    Another challenge that we had, and I want to speak directly 
to this because I know, from talking to Full Committee Chairman 
Rahall, as well as Mr. Grijalva, that one of the questions is, 
how do you deal with private sector funding not driving the 
goals of the National Park Service? This has actually been 
something that is not new.
    My friend, Brian Baird, in particular, climbs Mount 
Rainier. I read books about Mount Rainier. I have been to 170 
parks and historic sites myself, many multiple times. I have 
read probably approaching close to 80 to 100 books. I love to 
read books about how parks were formed.
    This was a dilemma from the beginning. Two pieces of 
testimony I would like to put into the record, actually three, 
from the hearings will touch on this, and people can see this 
debate more completely. One was in Boston, Ken Olson and the 
Friends of Acadia. Acadia was put together predominantly, and 
there is a little book about it by a man named Dorr that talks 
about basically how very wealthy landowners near Bar Harbor put 
together that park, and then Rockefeller gave the National Park 
Service the carriage roads, but he also put in a fund with 
which to maintain them.
    We have always had this challenge. Probably the biggest one 
we have had in the Park Service is the Golden Gate National 
Recreation Area, and I also want to insert, in addition to 
former National Parks Director Kennedy's testimony from Boston 
and Ken Olson's, Brian O'Neal's testimony from Golden Gate. 
Golden Gate was our biggest challenge in the park system. It 
had something like four or six percent of all of the historic 
structures in the entire park system. It was put under a 
mandate from the Federal government that it had to use a high 
amount of private sector funding, and it has been an innovative 
combination.
    We discussed this at length at both of these hearings. How 
does the private sector not do it, when L.L. Bean funded the 
bus? We could not get a visitors' center in Acadia National 
Park, so it is outside the park being constructed. It is called 
the ``Bean Bus,'' and it runs in.
    Without that type of cooperation--it is not a matter of 
putting billboards that say ``Yosemite Falls''--it does not say 
``Yosemite Falls brought to you by GM.'' But, nevertheless, 
Yosemite Falls and up doing that area took tremendous private 
sector involvement. We have done this at Rocky Mountain 
National Park in public/private cooperation at a visitors' 
center. It is being done in the new visitors' center, and I 
would like to put in Governor Thornburg's excellent testimony 
about how they worked with the private sector in building this 
new Gettysburg Center that we could not fund through the 
public.
    Nevertheless, what we heard in all nine hearing is if we do 
not have a hold-harmless in the private sector match, the 
private sector will not give additional dollars if they think 
that what that is going to do is reduce the public funding. We 
have a backlog as well as needs that, particularly, in a lot of 
the recreation areas where it is actually growing in 
attendance, cannot be just met by private funding.
    I just want to briefly say a couple of things that I 
learned from my visits and from these hearings. There are 
several points, in addition to the preparation from the 
National Park Service. One is that I think the parks need to be 
a science incubator. The core places around Old Faithful, 
around Yosemite Valley, around the Grand Canyon south rim, that 
we are probably not going to be able to handle that many more 
people, even with better transportation systems, and the Park 
Service seems to have had a relatively flat population or 
attendance at many of the major parks; it will go up and down 
little bit.
    But it should be a science incubator, and as we look at 
science, our park system, as well as our fish and wildlife and 
other areas, are a key thing.
    Another thing is we ought to have more educational 
interaction with our schools. Local areas around the parks have 
tremendous interaction, but it is not extended across the 
country. I believe that you ought to be able to see a ranger 
fireside chat and be able to be, as we get bigger screen TVs 
and connections, you ought to be able sit at home and choose 
which ranger talk you want to see. That is how we extend the 
value of each ranger. To do that, that brings the next 
question: technological innovation in the parks. And then, of 
course, the parks should be the environmental model.
    Those are a number of things that, I think, can bring the 
parks toward the centennial, in addition to, which the 
Subcommittee Chair related to, is that we need some kind of a 
baseline of whichever bill passes, and I support basically all 
of the different concepts. But there needs to be a Federal 
investment that is not reduced and is increased, in addition to 
the private sector investment if we are going to meet the needs 
of the National Park Service. It is a legacy we want to pass to 
our kids and our grand kids, and to do that for the hundredth 
birthday, even with all of our other financial pressures, this 
is our big chance to do it. Thank you for our tolerance.
    [NOTE: Documents submitted for the record have been 
retained in the Committee's official files.]
    Mr. Grijalva. Thank you very much, sir.
    Let me turn to the gentleman from Kansas, Mr. Tiahrt, for 
any comments he might have.

STATEMENT OF THE HON. TODD TIAHRT, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF KANSAS

    Mr. Tiahrt. Thank you, Mr. Chairman. Good morning, Chairman 
Grijalva and Ranking Member Bishop and Members of the 
Committee.
    As Ranking Member of the Interior Appropriations 
Subcommittee, I have come to be familiar with not only the 
programs of the National Park Service but, more importantly, 
the joy our National Parks bring to Americans each year.
    As you consider the needs of the Park Service, and 
especially the Centennial Challenge Initiative, it is wise for 
you to garner the perspective of those who use and promote the 
parks, as well as the National Park Service.
    I am especially pleased that Mr. Gary Kiedaisch, president 
and CEO of the Coleman Company, Inc., is here today. Mr. 
Kiedaisch has a vision of partnering corporate America together 
with the National Park Service Centennial Celebration in hopes 
of encouraging Americans to recreate in our National Parks and 
enjoy all that the National Parks have to offer.
    I am proud of the fact that the Coleman Company is located 
in my congressional district. Mr. Kiedaisch has more than 25 
years of leadership experience building global brands and 
guiding complex international companies to profitability.
    He began his career in his family's sporting goods store in 
Lexington, Massachusetts, where his love for the outdoor 
recreation industry began. As president and CEO of the Coleman 
Company, Kiedaisch has grown the base of business, improved 
operations, launched new products, reinvested in the company's 
brands, and created a platform for acquisitions. He has also 
renewed the company's commitment to the outdoors and is 
inspiring people to get outside.
    Representative Bishop, I am pleased to note that, under Mr. 
Kiedaisch's leadership, Coleman hosted an outdoor summit in 
2006 in Park City, Utah. The purpose was to pull customers 
together to grow the industry by recognizing each has a 
different role in the process of inspiring people to go 
outside.
    In the Interior Appropriations Subcommittee, we heard 
extensive testimony on the need to encourage children to spend 
more time outdoors, a concept known as ``Leave No Child 
Inside.'' Kiedaisch is championing this idea of emphasizing the 
social responsibility of the industry to get young people 
outdoors to learn lifetime skills and benefit from the outdoors 
experiences and create memories that last a lifetime.
    He has also been working vigorously with the administration 
to aid in the campaign of enhancing our parks and help 
formulate their proposal to encourage recreational activities 
in our National Parks. Back in February, Mr. Kiedaisch was 
invited by the president to attend a roundtable on the National 
Parks Centennial Initiative, along with Interior Secretary Dirk 
Kempthorne; National Park Director Mary Bomar, who is with us 
today; and ARC's Derek Crandall, who is also here, to 
brainstorm and advance this effort.
    Mr. Kiedaisch attended New York University and the Calvin 
Coolidge College in Boston. He has served as a state chairman 
of the United States Olympic Committee, chairman of the New 
Hampshire Tourism 2000 Commission, lottery commissioner for the 
State of New Hampshire, board of directors member of the United 
States Ski Team Foundation, and National Ski and Snowboard 
Areas Association, and of the Vermont Institute of Science, 
Math, and Technology.
    He is a current board member of the Outdoor Industry 
Association, American Recreation Coalition, and serves on the 
board of directors of Students and Free Enterprise.
    No stranger to the outside, Mr. Kiedaisch is a former 
nationally ranked, competitive skier and continues to enjoy the 
outdoors with his wife and family through alpine skiing, 
mountain biking, hiking, rowing, and sailing.
    His presence here today is testimony to the partnership 
that this bill is intended to foster. I am pleased that Mr. 
Gary Kiedaisch is able to testify before this Subcommittee on 
this very important initiative.
    I just want to say, from the experience that I have had 
over this last year, that getting kids outdoors is really a 
high priority that this nation needs to focus its resources on. 
Obesity is one of the big problems that our children face 
today, and getting kids outside helps them get beyond this 
problem of not having exercise. It makes them healthier, and, 
hopefully, they can overcome the obesity problems.
    But obesity contributes to diabetes, and, by getting kids 
outdoors, we will give them a healthier outlook, plus, I think, 
reduce the medical costs for them that they will face as they 
age. But also, people in poverty, the number one problem they 
face today is obesity.
    So we need to figure out a way to have our National Park 
System encourage people, regardless of their financial status, 
to get involved in the Park Service.
    I think that this program of combining our national 
resources and our tax dollars with individuals' and private 
companies' investments is a good way to get not only kids in 
the outdoors but also those who are challenged financially. It 
is a great way to get out in the parks.
    One of the things that Coleman has done is stick coupons in 
their coolers to encourage people to get outdoors, to get into 
the park system, and I think, by having this corporate/
government partnership, we can achieve the goals that all of us 
want to meet, and that is getting people outdoors so that they 
are healthier, they live longer, and it gives them more time to 
contribute to our society.
    I appreciate the opportunity to testify, and I hope that 
you will give Mr. Kiedaisch a wonderful opportunity to express 
his vision of how we are going to get people into our park 
system and make a healthier America. Thank you.
    Mr. Grijalva. Thank you very much.
    I am waiting for the last remaining colleague, but we are 
going to begin the questioning. I have no questions for my 
colleagues, but I did want to comment briefly, Mr. Souder. I 
think your point is very, very well taken about the hold-
harmless, maintenance-of-effort concept that you spoke about, 
as well as the technological needs of the future for our Park 
Service.
    I appreciate those comments very much, and, Mr. Tiahrt, I 
think, as we move forward, I think the working relationship and 
the cooperation between the authorizing committee and the 
appropriators is going to be critical to putting something 
together that is good and lasting.
    With that, let me turn to the Ranking Member, Mr. Bishop.
    Mr. Bishop. Thank you. I appreciate both of you being here 
again today, Mr. Tiahrt.
    Mr. Chairman, I thought we had a rule about talking about 
obesity in front of me here.
    Mr. Grijalva. Yes. I take it a little personally myself.
    Mr. Bishop. We are just nutritional overachievers here.
    I appreciate you coming here. I appreciate the witness who 
will be speaking in a minute. The next time he has a conference 
in Park City, I would appreciate it if he would leave more 
Republicans there. I am trying to get above that 70-percent 
ceiling in my district.
    I do have a question for Mr. Souder, though, that is 
legitimate. You actually had some bills that were introduced in 
the past.
    Do you want to wait for Mr. Baird before we go with these 
questions?
    Mr. Grijalva. Yes.
    Mr. Bishop. All right. I will withdraw that. I am going to 
ask you about the funding mechanism you had in your bill, but 
let us let Mr. Baird speak first.
    Mr. Grijalva. Thank you. Let me welcome our colleague, Mr. 
Baird, for his comments and testimony, sir.

STATEMENT OF THE HON. BRIAN BAIRD, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Mr. Baird. Thank you very much. I was literally testifying 
just up the hallway, and I had to run here, but I am grateful 
for your indulgence, and it is good to be with my friends.
    I appreciate you holding this important hearing on the 
National Parks Centennial. As you know, Congressman Souder and 
I are co-chairs of the National Parks Caucus within the 
Congress. Our purpose is to educate colleagues on National 
Parks issues. The caucus has organized briefings, advocated for 
funding, and worked to raise the profile of the parks in 
Congress. We have 50 bipartisan members from all across the 
country.
    As we approach the 2016 centennial anniversary, it is 
imperative that Congress, the administration, and the people 
renew their commitment to the great treasures that are our 
National Parks.
    I would like to congratulate both the Chair and the Ranking 
Member for introducing their respective bills to establish a 
new Centennial Fund to help prepare for the centennial. The 
administration should also be credited for seeking a change. 
The president, Secretary Kempthorne, and Director Bomar have 
initiated an aggressive National Parks Centennial Challenge 
that deserves to be commended.
    As the Subcommittee knows, our National Parks face chronic 
funding shortfalls. There is a current annual operating deficit 
of $800 million and a maintenance backlog estimated between six 
and $12 billion. This means our parks are understaffed, sites 
are closed to the public, facilities are growing older and 
outdated, and roads are not maintained.
    As you know, Congressman Souder and I have reintroduced for 
the Third Congress our own proposal for the centennial, the 
National Parks Centennial Act. The bill has 45 co-sponsors, 
including 11 Members of this Subcommittee. I would say, 
parenthetically, by the way, that I think there are no Members 
of this Congress who have more affection for the parks than my 
friend, Mr. Souder. He has a personal goal of visiting every 
single park in the country and is a tireless advocate, and it 
is a pleasure to work with him on this worthwhile effort.
    Our bill creates a National Parks Centennial Fund that 
specifies that 60 percent of the money will be used to 
eliminate the maintenance backlog, 20 percent for natural 
resource protection, and 20 percent for cultural resources. It 
would also allow taxpayers to designate a portion of their 
repayment or overpayment for the fund. This would not replace 
regular congressional appropriations but would allow 
individuals to directly show their support and contribute to 
the revitalization of the park system.
    There is a $200 million target specified for 2008. The goal 
would increase by 15 percent annually, ending up with $612 
million in Fiscal Year 2016. Our goal is nothing short than to 
redress this backlog in our national treasure.
    I know you have heard from our colleagues and have 
questions, so I will keep my remarks relatively short, at this 
point. I thank you for considering this legislation, and I 
thank you for your leadership on this issue and look forward to 
chatting further about this and urge support for this or, 
possibly, some hybrid bill that would reflect the best of the 
various three pieces of legislation, which all have great merit 
to them, I think. Thank you very much.
    [The prepared statement of Mr. Baird follows:]

 Statement of The Honorable Brian Baird, a Representative in Congress 
                      from the State of Washington

    Thank you, Chairman Grijalva and Ranking Member Bishop. I 
appreciate you holding this important hearing on the National Park 
Centennial. As you know, Congressman Souder and I are co-chairs of the 
Congressional National Parks Caucus. The purpose of the Caucus is to 
educate our colleagues on National Parks issues. The Caucus has 
organized briefings, advocated for funding, and worked to raise the 
profile of the National Parks in Congress. We currently have 50 
bipartisan members from all across the country.
    As we approach the 2016 centennial anniversary of the National Park 
Service, it is imperative that Congress, the Administration, and the 
American people renew their commitment to the great treasures that are 
our National Parks.
    I would like to congratulate both the Chairman and Ranking Member 
for introducing their respective bills to establish a new Centennial 
Fund to help prepare for the centennial. The Administration should also 
be credited for seeking a change. The President, Secretary Kempthorne, 
and Director Bomar have initiated an aggressive National Parks 
Centennial Challenge that deserves to be commended.
    As this Subcommittee knows, our National Parks face chronic funding 
shortfalls. There is a current annual operational funding deficit of 
$800 million and a maintenance backlog estimated between 6 and 12 
billion dollars. This means our Parks are understaffed, sites are 
closed to the public, facilities are growing older and outdated, and 
roads are not maintained.
    As you may know, Congressman Souder and I have re-introduced, for 
the third Congress, our own proposal for the centennial, the National 
Parks Centennial Act. The bill currently has 45 cosponsors, including 7 
bipartisan members of this Subcommittee.
    Our bill creates a National Parks Centennial Fund. It specifies 
that 60% of the money in the Fund will be used to eliminate the 
maintenance backlog, 20% for natural resources protection, and 20% for 
cultural resources protection.
    It would also allow taxpayers to designate a portion of their tax 
refund, or overpayment, for the Fund. This would not replace regular 
Congressional appropriations, but would allow individuals to directly 
show their support and contribute to the revitalization of the Park 
System.
    The legislation specifies a $200 million target for Fiscal Year 
2008. The goal increases by 15% annually, ending with $612 million in 
Fiscal Year 2016. If contributions from taxpayer designations fall 
short of this goal, they will be made up of deposits from the General 
Fund.
    Our legislation also requires a biennial report by GAO on the 
progress of eliminating the annual operating deficit of the National 
Park System.
    Finally, our legislation requires the Department of Interior to 
submit four reports about the current state of the Parks and their 
future. This includes:
    <bullet>  A report on the historical, cultural, and environmental 
resources currently represented in the National Park System and 
recommendations about what gaps exist that the National Park Service 
could fill.
    <bullet>  A report on the National Park Service's outreach efforts 
to raise interest in the Parks among young people and different ethnic 
groups, including an analysis of local partnerships and recommendations 
for improving these programs.
    <bullet>  A report on the condition of roads and bridges in the 
National Parks and recommendations for repairs, replacements, and 
additions.
    <bullet>  A report on alternative transportation systems in the 
National Parks and recommendations for repairs, replacements, and 
additions.
    I hope that the Committee will give serious consideration to the 
elements of our bill as it considers and develops legislation to 
address the funding challenges at our National Parks.
    Each of the proposals that we are discussing today has good 
features that are worthy of inclusion in the eventual Centennial Act. 
While I do not want to prejudge the outcome, I believe a proper blend 
of the approaches set forth by all parties will have the strong support 
of Congress and the American people.
    Regardless of what the final Centennial package looks like, I 
believe there are two key points:
    First, we must invest serious resources into our National Parks. 
These are America's most cherished places. I would challenge anyone to 
visit Mt. Rainier, Zion National Park, or Yellowstone and not only be 
amazed, but also inspired, by the magnificence and beauty. We must also 
remember the lesser known, but equally worthy sites. My district is 
home to the Fort Vancouver National Historic Reserve and the Lewis and 
Clark National Historical Park. While not as famous as the Grand 
Canyon, these sites are visited by thousands annually. Unfortunately, 
they have not been funded at a level that allows them to realize their 
full potential. The entire National Park System is worthy of our 
protection and investment.
    Second, we must bring more Americans into the Park System. The 
Park-going population is aging. We need a renewed focus on bringing 
younger and more diverse individuals to these sites so that future 
generations will continue to appreciate the Parks and engage in all the 
activities they have to offer. To achieve this, we should review 
current outreach programs and consider new ones. Additionally, the Park 
System can and should partner with more local schools and engage in 
national education programs.
    Preserving our National Parks takes a commitment on our part that 
all Americans need to understand. It requires careful environmental 
stewardship and hard work. But I am optimistic that we can make 
significant progress toward addressing the current problems facing our 
National Parks.
    Again, I thank the Subcommittee for holding this hearing. I look 
forward to working with this Subcommittee to craft Centennial 
legislation that supports our National Parks.
    Thank you.
                                 ______
                                 
    Mr. Grijalva. Thank you very much. Mr. Bishop?
    Mr. Bishop. Mr. Souder, the funding mechanism you had in 
your bill; it ran in my mind that it was some kind of a 
checkoff system. I may be inaccurate with that. Can you just 
tell me what the funding mechanism was or is?
    Mr. Souder. What most people focused on, quite frankly, in 
the co-sponsorships was the checkoff mechanism and--it is more 
buried in the bill, which not every Member is noted for reading 
every detail of the bill--that we actually set in the bill a 
targeted amount that the Park Service needs to reach if they 
are to take care of the backlog and meet the demands that we 
need to maintain rangers and Park Service quality. In fact, it 
says in the bill that if we do not meet it through the 
checkoff, the Federal government would make up the gap.
    We always knew that there would probably be some sort of a 
hybrid bill, that we set our goals high. We have achieved some 
of those in this last appropriations process to increase the 
funding, but it is still not enough. I believed one of the 
compromises might be, in fact, matching funds combined with 
some baseline increase in regular funding.
    I believe there are additional dollars to be gained if the 
Parks Centennial can become a Hollywood celeb, a high-tech 
guru's kind of thing, like Farm Aid did, like different 
crusades become, because this is a lasting legacy to take some 
of the new wealth in the United States. They are already 
putting it in the Park Service, but by having a match with 
that, I think we can stimulate bigger gifts into the Park 
Service to meet some of these needs that are being raised.
    The bottom line is that, in fact, there needs to be 
protection, so we do not have what happened to, for example, 
the Hoosier Dome becoming the RCA Dome and this type of thing. 
There needs to be some sort of restrictions as we move through 
this. There needs to be public input as to what the projects 
are going to be.
    So, ultimately, ours was a checkoff, combined with Federal-
supplemented funding, but I believe a match that the 
administration has is where we were likely to head as the 
legislation moved forward.
    Mr. Bishop. Did you ever gain, from either the CBO or your 
own estimations, a rough ball-park figure of how much could be 
generated from a tax checkoff approach?
    Mr. Souder. I will let my friend, Congressman Baird, 
address this more, but, as I recollect, the battle here is 
that, given that there was not a match, and given that we had a 
target figure that we were trying to reach annually, that the 
amount that was going to be generated from the checkoff was 
less clear. It did not have quite the match mechanism. It had a 
Federal government thing.
    So we had a target on the bill, and we know what that 
target was over the course of the bill, and I will let him say 
the target.
    Mr. Baird. Well, it is very difficult to guesstimate 
exactly how much people will put forward. Congressman Souder 
and I are of the belief--I think we all are--that the American 
people love their parks, and if they believe that they are 
contributing something, and they know exactly where it is going 
to go, and we have an occasion like the centennial, we think 
that alone will be pretty stimulative. But we also think that a 
matching kind of program, such as that put forward by the 
administration and some of the other proposals, would further 
stimulate that.
    So the hope would be that, with publicity for this, 
publicity at the parks themselves, publicity elsewhere, of if 
you have a refund coming to you, or you have made an 
overpayment in your taxes, you can actually designate where a 
portion of this goes and not only know, as in the initial draft 
of Congressman Souder and I, that your money will be there, but 
there will now, hopefully, possibly, also be matching funds.
    Mr. Bishop. I find it an interesting concept and something 
we should pursue.
    I just wondered if there was ever a range of possibilities 
that people were looking at.
    Mr. Baird. Well, we have the target numbers we have 
identified, but----
    Mr. Bishop.--no one ever came up with something.
    Mr. Baird.--we do not have any empirical data from surveys 
or anything that I know of.
    Mr. Bishop. Thank you.
    Mr. Souder. If I may take one more stab at that, because it 
sounds like we are being evasive, but because we put the total 
number in----
    Mr. Bishop. I would never say you are evasive, sir.
    Mr. Souder. Because the total number is in the bill, we did 
not need a CBO scoring, and we did not really plunge into that, 
and because we did not have a direct match.
    What our assumption is, is that by the administration 
setting, say, a $100 million target, that you can probably 
reach the private sector target. The question is, would that be 
sucked out of other funds that are already in existence, and if 
we do not have some way to address that? For example, Yosemite 
Fund, Grand Canyon, Yellowstone have huge, already donation-
based, Acadia; how do you make sure that that money is going 
there, that it is new money? My assumption is that whatever you 
set a match, that is what you are going to be able to raise.
    Mr. Bishop. All right. Thank you. I appreciate that.
    Mr. Grijalva. Thank you, Mr. Bishop. I understood your 
question perfectly, but, then again, you know, English is my 
second language.
    Mrs. Christensen, any questions?
    Mrs. Christensen. I do not have any questions, Mr. 
Chairman.
    Mr. Grijalva. Thank you. Mr. Kind?
    Mr. Kind. Thank you, Mr. Chairman. I want to thank you and 
Mr. Bishop for holding this important hearing, and I also want 
to thank my colleagues for the obvious passion that they bring 
to this issue, and I share that.
    If we get out of here at the end of this week, I am going 
to get home as soon as I can, grab my two little boys, and head 
over to the Teddy Roosevelt National Park and try to spend some 
quality time with them inside the park.
    We have been doing that on an annual basis; during the 
August recess, trying to hit a different National Park. Last 
year, it was Grand Teton's Yellowstone; the year before that, 
Glacier; we were in the Black Hills the year before that. These 
are truly our monuments to civilization as a nation.
    Some countries have the Great Wall. Some have pyramids. We 
have our public lands, our National Parks, our refuge system, 
that we have to live up to in regard to the stewardship, that 
we have responsibility over, and pass it on to the next 
generation.
    As I go into the parks and meet with the park personnel, I 
am so impressed with the level of professionalism and 
dedication and the hard work that our park personnel bring to 
their job and the volunteers who are going in there each and 
every day to make it work. But each park is faced with their 
own unique challenges. When you sit there, and you listen to 
it, and they are unique from park to park to park, but also 
common themes, and I think you all have identified the backlog 
in maintenance and repair, between $610 billion or so and 
counting, that we have to be concerned about.
    I think, given the Centennial celebration coming up in a 
few years out, we have an opportunity really to focus a lot of 
attention, and that is why I appreciate, Brian and Mark, you 
guys forming this bipartisan park caucus to help the rest of us 
get educated and up to speed on these issues as we approach 
this centennial celebration, and also the various ideas, Todd, 
yourself, the ideas that you are bringing with regard to what 
we might be able to put together, whether it is the checkoff, 
whether it is a private contribution match that the 
administration has been proposing, what responsibilities we 
might have operating under the pay-as-you-go budgeting, which 
is always a challenge around here to meet these challenges.
    I am concerned with some of the trend lines we see out 
there: a huge drop-off in visitors to our National Parks; we do 
have an aging population; a greater effort for outreach, trying 
to get the youth and younger people more excited about these 
visit opportunities; that we are going to have to be creative 
in trying to figure out.
    I think, Mr. Souder, you referenced the fact that we also 
need to be careful in regard to the private match or the 
private contributions because I do not think anyone would 
particularly like to see ``Yellowstone McDonald's National 
Park'' or the ``Grand Google Tetons National Park'' at the end 
of the day. But I think the administration's proposal, in 
trying to get private partnerships and maybe corporate America 
to step up, too, and see if they can ante up. All of this is an 
idea worthy of further exploration and merit.
    So we will look forward to working with all of you on that 
as we move forward and certainly appreciate your testimony here 
today. But if any of you have a thought, and I will just leave 
this to any of you who might want to address it, is the serious 
concern of the trend line right now the drop-off in visitors 
that we have seen in recent years and the impact that is going 
to have on the park system, but also the response we are 
seeing, which is increased park fees now--they are going to be 
kicking in--and whether that might be acting as a deterrent in 
the future for more visitors going to the parks.
    If any of you have thought about how we can counter that 
with any specific proposals or programs, we would be interested 
to hear from you.
    Mr. Souder. I actually have a number of thoughts. I tried 
to work with former Chairman Regula on this. I believe there 
needs to be some kind of a tax offset for people below a 
certain income to pay for the fees. The problem is how to 
identify that at the gate or whether they would get it through 
the National Park Service directly through application and 
would address some of that.
    The fees for parks, while we are not getting complaints, 
there is not any sign that there is actually deterrence, but we 
do not know what the indirect is, and certainly for lower-
income families, it could become a challenge. This is hard to 
say. We do not necessarily want more people in Yosemite Valley. 
We want everybody who wants to go there to be there.
    The potential growth here are the places like Santa Monica, 
Golden Gate, the gateway parks in Cayuga, Indiana Dunes 
National Lakeshore, places near population areas which will 
have the long family vacations, the traditional-type things 
that are there. That is likely to stay relatively stable.
    When you go to Great Falls--that is the closest one here--
but also San Antonio Missions, you will see large populations 
of Hispanic families not going to actually see the mission 
necessarily or the falls but to picnic and to use that open 
space, and then some go look at the falls. It is much like any 
other new group, as they get exposed, and as their income goes 
up, and as they start to appreciate the nature, we need to 
encourage things like Angel Island in California to reach out 
to those different groups to make sure that it is affordable, 
where there is a blockage.
    It is very hard to count at these national recreation areas 
people coming in. We do not have counters. So it is not 
necessarily true that the total people visiting historic sites 
and others are dropping. Apostle Islands; how in the world do 
you count Apostle Islands? They are coming in by sailboat. But 
we do know that the crown jewels are relatively flat.
    So I do not think it is as big a problem, but I would also 
like to see this technologically move forward.
    If I can make one other thing that I have this burning 
desire to get into the record, and that is, part of the funding 
challenge here, particularly for the baseline funding, needs to 
be the Park Service has had tons of Homeland Security missions 
dropped on them. Much like in the highway, we cover a lot of 
the park roads through the highway bill.
    Some of the other appropriation subcommittees need to take 
up some of the burdens as we move to broaden this. If it is 
Homeland Security mandated by other agencies, there needs to be 
in the budget not all of that borne within the Park Service 
because then it means a reduction in traditional Park Service 
things.
    Similarly, in ``No Child Left Behind'' or in science bills, 
we have the greatest incubator of art, of education programs, 
of wildlife, of science, and we need to try to get a little 
more less stove piped by committee and try to look creatively 
how we are heading into the next centennial. Thank you.
    Mr. Baird. Congressman Kind, if I may, Mr. Chairman, just 
very, very briefly address that in light of this legislation.
    If you look at the history of our parks, as you have said 
so eloquently, our parks were, for Americans, a source of great 
national pride. From the early days of inception, people looked 
at Europe and said, You have cathedrals, you have the 
Colosseum, you have all of these other things; we have our 
natural resources. There have been various times, as we all 
remember, of national campaigns celebrating the parks.
    I think something like that would be worth investigating, 
but I also think our legislation might help that. People tend 
to value things that they have paid for, and if you make a 
checkoff on your taxes and say, even if I am not seeing this 
particular park this year, I want to know it is being taken 
care of so that one day, as you are going to in a week, if we 
get out of here, you are going to visit a park with your 
family, you will know you helped preserve that park.
    So I think, and what may, to some, be paradoxical but makes 
sense to me, by giving people the opportunity to pay for the 
maintenance of their parks directly through a checkoff, I think 
you enhance the awareness of the parks and the commitment to 
the parks and their values.
    Mr. Grijalva. Thank you very much. Let me just say, I could 
not agree with you more, Mr. Souder, that representing various 
parks along the border, 30 to 40 percent of park services are 
diverted toward security and enforcement activities that are 
mandated by Homeland Security.
    There has to be a mechanism down the road to reimburse or 
make whole some of these expenses that are diverting from the 
real enjoyment and the real preservation of those parks. A 
point well taken, sir.
    Let me turn to Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman, and, Mr. Tiahrt, 
actually any one of you could answer this question. We have two 
bills with worthy and great goals before us. However, the 
Bishop bill has a component that I really like, and that is the 
opportunity for the private sector to contribute.
    In your experience, Mr. Tiahrt, on appropriations and 
dealing with the dollars and for the other two of you as well, 
do you feel optimistic that it would be successful, that asking 
the private sector to step up and meet this Centennial 
Challenge would actually get the job done?
    Mr. Tiahrt. We have seen some interest already in 
corporations and companies and individuals that want to be part 
of our park system in a big way, and matching funds is a very 
encouraging way to get them to become committed. In some of the 
parks in Florida, we have seen a big response already.
    So I think this is a good way to give people more ownership 
in what they already know is our natural resources, but they 
feel like they can do something through their company resources 
or through their individual resources, especially if it is 
matched. It seems to be a big incentive. I think it would be a 
great fault of this nation if we did not give them that 
opportunity because the desire is there, the capability is 
there, and I think it will happen.
    Mr. Lamborn. Thank you.
    Mr. Baird. I would concur with that. We see examples. One 
of the things, certainly in our neck of the Northwest, we do 
not refer to Mount Rainier as ``Mount Rainier.'' We refer to it 
as ``the mountain,'' and it is beloved. I mean, sincerely, 
people will call, there will be little automatic, spontaneous 
phone trees if there is a beautiful sunset. People say, ``Run 
outside and look at the mountain. You have to see it.'' This 
happens all of the time.
    We have a number of fairly well-to-do people, thanks to the 
high-tech boom, and if they could adopt projects within that 
National Park or down in Lewis and Clark National Park, 
preserving an area or expanding and improving a resource, 
people, I think, would be actually eager to do that, and that 
is why I am actually very positive about this. I think, 
oftentimes--Mr. Souder is absolutely right--we need to be 
careful to not have the ``Google National Tetons.''
    I think, many times, folks are perfectly willing to do 
something just because it is the right thing to do, without 
asking for a logo on something, just to say, ``We believe in 
this, and we want to support it.''
    By the way, the matching program that Congressman Souder 
and I are putting forward might be a way to help find some 
offset for the big contributions under the Bishop bill. The 
individual taxpayer could contribute to the fund, and that 
might be able to be used as a match for the larger direct 
contributions.
    Mr. Souder. The National Park Foundation, NPCA, and others, 
and, in fact, every major park has had examples of major 
private sector giving. Clearly, there are corporations that 
have some stake with the outdoors, whether it is Coleman or REI 
or L.L. Bean, RV manufacturers, GM, Ford, Toyota, and others, 
``Kodak moments''--you see that at the parks.
    The question is how to broaden it beyond just the 
traditional. Some, by what Mr. Baird said earlier, was getting 
individuals to feel that they have a stake in the system, small 
donations, and if we can reach out to schools and get these 
kinds of programs into the schools, people will feel ownership 
in that system.
    The other is, how can we get to the new money and the 
younger money in our society, which is why I mentioned 
Hollywood, why I mentioned the high-tech investors and others, 
that has been going to different various causes, how can we 
make parks the cause celebre for the hundredth birthday? And 
that is a slightly different donor challenge and requires some 
thinking beyond just kind of the traditional ways we have had 
private donors go in, which are basically regional support, or 
I visited that park, or I have a financial stake in promoting 
tourism. We need to figure out how to get to the next tier of 
donations.
    Mr. Lamborn. Thank you for your answers. I have a park pass 
right here, and I feel like this gives me a buy-in. I feel like 
I have an ownership. I have a role. I have a contribution that 
I have made, even though it is modest. These goals that you are 
talking about are so great, I am really glad that you are here 
today, and thank you for your work.
    Mr. Grijalva. Thank you, sir. Ms. Herseth-Sandlin, any 
questions?
    Ms. Herseth Sandlin. Yes. Thank you, Mr. Chairman. I 
appreciate my colleagues' interest. I think I know at least one 
of you, and, hopefully, all three of you have been to Mount 
Rushmore and the Badlands. I know Mr. Tiahrt has. He grew up in 
that neck of the woods in South Dakota, the eastern side.
    I want to explore this issue of project selection because I 
do think, as you described, Mr. Souder, you have sort of 
regional groups, as we do with the Mount Rushmore Society, the 
Friends of Mount Rushmore, that have done a lot to preserve and 
enhance the visitors' experience, working with the National 
Park Service officials.
    So we have heard some different ideas in terms of the 
individual levels, who may not be individuals who are not 
necessarily a part of those regional associations that are in 
the locality situated next to a National Park, and then you 
have those regional associations, and then you have this next 
tier that you described of donations.
    So separate from how we get to those donations, what do we 
do with project selection because I know that we have the 
Friends of Mount Rushmore, who would be very interested in 
being able to access a match for a particular project at the 
park. But yet we also know that we could then come into the 
problems you described with the next tier of donations, where 
the donor expects something that maybe we are not comfortable 
giving because of the public resource that it is and naming 
rights of what have you.
    So is there a way to set this up and maybe preserve some 
matching proposal, either the one that you are describing, Mr. 
Baird, that the caucus is working on, or the concerns that I 
know the Chairman has and that I share, to a degree, too, about 
who is best situated to make the selections: the National Park 
Service, Congress?
    Should there be different tiers of what the donation is, 
and should it be bricks and mortar? Should it be separated into 
categories, as the Chairman's bill provides? Should a regional 
association that has a long track record of supporting that 
park have some influence in the type of project selection that 
would qualify for the match? I would be interested in your 
thoughts on that.
    Mr. Baird. It is a great question and one that Congressman 
Souder and I asked when the administration first rolled out 
their proposal under Secretary Kempthorne.
    One of the things that has been happening and has already 
been going on is a process to address precisely that. There 
have been so-called ``listening sessions'' held throughout the 
country already to hear of possible needs and priorities, and 
those listening sessions have been regional, but within that 
regional focus, there have been focuses on specific particular 
issues. For example, in my home district, would additional 
money be useful for the visitors' center in Vancouver Historic 
Reserve? Would it make sense to try to purchase some dunes to 
expand the Lewis and Clark National Park?
    When you look at those, then there is a prioritization of 
needs, and, frankly, to some extent, also a prioritization of 
resources in the sense that if someone comes forward and says, 
``I am willing to spend X amount of dollars because I believe 
this need needs to be met, and no one else is spending money 
elsewhere.''
    I think that all of these proposals have one thing in 
common. This would supplement but not supplant the existing 
Postal Service budget. So we are not saying, ``OK. If extra 
money is brought in by a private donor or a matching target in 
a certain area, then take it away from somebody else.'' This is 
over and above the operating budget.
    So I think it would be a combination, frankly, of the 
legitimate resource needs, the Postal Service prioritization, 
and where various donors see that they might want to allocate 
their funds.
    Mr. Souder. I agree with that. It is a messy process, and 
it always will be a messy process, and the National Park 
Service is not known as a big risk taker. They tend to move 
slowly. You have the advocacy groups as well, NPCA, as well as 
the Wilderness Society, which often weigh in differently. It is 
not that different from the jet ski-snow mobile type of end-
holding types of fights of how you work it through. It is a 
combination of local and national. If it is a nationally funded 
park, add donors to that.
    Should this be viewed as a private preserve of the local 
community, which sometimes it is? Should it be viewed as a 
National Park?
    Often the people who seek this Committee or elsewhere are 
mostly on a committee because they have something in their 
area, and they are not necessarily looking national, but they 
want the national money to come into their area, but they look 
at it as they do not have the property taxes on that land.
    These are the kinds of classic problems we are going to 
have. Obviously, the size of the donation is going to matter 
some, and there are going to be earmarks in the process, as we 
always go through and put our little thing in it.
    But the bottom line is that, at the National Park Service, 
there are so many strong national advocacy groups, in addition 
to congressional oversight, it is likely not to be egregious. 
But there should be some sorts of mandates, like the public 
process, like limitations, in my opinion, on how it can go and 
how extensive it can go, and, basically, complete transparency 
on every step.
    Mr. Tiahrt. If I might add to that, thanks for the 
opportunity, and the Friends of Mount Rushmore have done a 
great job, and I think it is a good example. If we do not want 
to take away the resources that have already been established 
by some of these groups, but we do want to allow regional 
emphasis, one of the things that I was talking to Mr. Kiedaisch 
about was having an opportunity for a mountain bike path close 
to the D.C. area.
    A lot of people like to mountain bike, and yet, in some of 
our close parks, they have horse trails, they have hiking 
trails, and they do not have very many people come here because 
the big popular thing quite often is to get the exercise 
through mountain biking.
    Well, if we could, in this region, establish a matching 
grant to get a mountain bike path, I think we would see the 
number of people that use the park go up dramatically, and 
those kinds of regional opportunities should not be ignored.
    Now, I think it should be a cooperative effort with the 
Park Service because, ultimately, the Park Service is 
responsible for our National Parks, but I think we should allow 
people to come up with an idea that would satisfy a region, if 
it is Mount Rushmore or something on the Massanutten Mountain, 
that they can use their resource, combine it with Federal 
government, and come up with a way to increase the number of 
people that come to our parks system. I think it is totally 
possible. It will be little bit messy, like Mr. Souder says, 
but still possible, and I think it is one way that we can use 
to get people outdoors.
    Mr. Souder. By the way, you actually have one of the best 
examples of the difficulty, and that is the parking garage at 
Mount Rushmore. It was done with outside funds. It is not 
included in the park fee.
    Therefore, one of the only places they get complaints about 
the park fee is that the parking part is not covered in the 
Mount Rushmore fee, but there was no other way to get that into 
the mandates to build the parking garage. So they basically 
went along with an unusual hybrid in order to do that, and 
sometimes you have to do that.
    Ms. Herseth Sandlin. Well, thank you for mentioning that, 
and thank you, too, for mentioning the Homeland Security 
mission that especially places like Mount Rushmore have faced, 
and it has put the squeeze on other aspects of their budget. So 
thank you very much, all three of you.
    Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you. Mr. McCarthy, any questions?
    Mr. McCarthy. Mine is just more of a comment. I, one, like 
the idea. I think it is very creative. Yes, there could be a 
few challenges as we go, yes, but I think I go back to your 
statement. As long as there are transparencies, I think it is 
worth the challenge. Why miss the opportunity?
    I think we are going to find out in the public there is 
going to be all new ideas that come forward. There is going to 
be new ownership from people. It is going to be a rebirth as we 
go forward, and I applaud you for bringing it forward and 
championing it, and I will work to have the challenges as we 
move forward, so I thank you.
    Mr. Baird. If I could make one other comment. I know you 
are going to have other witnesses. I do not know that we have 
mentioned the international appeal of our National Parks. If 
you go to almost any U.S. National Park, you will see people 
who have traveled the world to get here. I had the privilege of 
kayaking the Grand Canyon about 15 years ago.
    There was a couple from East Germany, actually, who had a 
picture of the Grand Canyon above their breakfast table and had 
looked at it every single day for 35 years and had set money 
aside. It was their dream to visit the Grand Canyon: 35 years, 
from a country pretty far away from us, to come visit a U.S. 
National Park, and that is the treasure. We have this 
opportunity.
    There are good proposals before you. I would hope this 
Committee will seize this opportunity, take the very, very best 
of these three things and do something very creative and bold 
to preserve and celebrate these National Parks. As we 
anticipate the centennial, we are grateful for the chance to be 
part of that effort.
    Mr. Grijalva. Any further comments? Let me turn to our 
colleague, Mrs. Capps. Do you have any comments, questions?
    Mrs. Capps. Thank you, Mr. Chairman, and thank you for 
holding this hearing. I do not have any questions of this first 
panel. I do with some of the subsequent ones. But I want to 
thank you for inviting our colleagues in and thank our 
colleagues for their testimony.
    It is interesting to hear, as someone who has a National 
Park, the Channel Islands National Park, in my district, to 
hear comments, I particularly want to associate myself with 
those that our colleague from Washington State just made about 
the importance of our parks and what this legislation that our 
Chairman has introduced will do to strengthen and preserve and 
celebrate the centennial. I yield back.
    Mr. Grijalva. Thank you. One last general question, and 
then I will offer the opportunity to Mr. Bishop, a hypothetical 
question, gentlemen, if you could.
    We have a park unit. The grave need in that park unit is a 
waste water treatment plant, not a visitors' center, and as we 
attract private donors, how is that priority factored in, and, 
talking about the messy point that you brought up, just a quick 
response? How would we handle that?
    Mr. Baird. My own belief is the issue I raised earlier. I 
think we have certain base needs, in terms of maintenance and 
operation of a park, that we, frankly, ought to fund as 
directly as we can through the normal appropriations process.
    Congressman Souder and I, our bill is somewhat hybrid in 
that effort. I hate to overuse the term, but, remember, we have 
set a target and said we are going to give the public an 
opportunity to contribute directly, but we must meet these 
funding goals.
    So we would say--Mark, correct me if you see it in a 
different way--we would say there are base funding needs for 
these parks that must be met by the U.S. Congress through our 
appropriations process from the general fund. We believe that 
ought to be part of the appropriations process. We also want to 
give the taxpayers a way to signify their support for that by 
so designating money over and above it.
    It should not just be the glamorous, new visitors' center 
or something like that. It should also be the basic day-to-day 
maintenance and operations, and we have to make sure we do not 
neglect that.
    Mr. Souder. If I may add, I concur, and off the top of my 
head, an analogy might be, at a university, the park pass or 
your fee coming in may be like the football tickets that 
contribute some to the university, but you get use out of it. A 
university, when they do fundraising, for example, the 
University of Notre Dame, they do not do fundraising, saying, 
``We need to get our power plant updated, and we need to 
improve our sidewalks, and that our electrical bills went up by 
10 percent last year.''
    They will do it for a building, for a science project, and 
so on, and the private sector does that. I agree with my 
colleagues that the basic funding has to be out of Federal, but 
the Park Service, in one of their goals, says that the Park 
Service should be an environmental model, and I have heard this 
at different parks.
    I was able to sit in with some of the private sector 
research groups at Yosemite, as well as the funders, and one of 
their complaints was how can the National Park Service be a 
model to the world about how we should do it environmentally 
and have all of these sewage problems in these different parks? 
How can we be having vehicles, buses, that are not the latest 
in environmental strategy? I think that the goals of the new 
program are that the Park Service reflect that, but the bulk of 
the Park Service funding will always be baseline funding.
    Mr. Grijalva. Mr. Bishop?
    Mr. Tiahrt. Let me comment on that, Mr. Chairman. One of 
the challenges that we face in the appropriations process is 
watching a sustaining level of funding for our park system, 
making sure that we have the essentials: keeping the lights on, 
keeping the place clean, keeping enough rangers on staff so 
that we can just meet the basic level of keeping the place open 
and accessible to the public. That has been a challenge, and 
the waste treatment facilities, as you know, have been part of 
that. They get backlogged, and it becomes a real problem.
    This corporate funding really has to be sold under the best 
part of the park. If you have ever had a corporate sponsor, I 
do not think you could get one for the waste treatment plant. 
Maybe Mr. Clean would like to do it. I am not sure, but it 
would be a challenge.
    So I think that, when we look at the tax dollars we spend, 
we ought to look at what do we think it takes for a sustenance 
level, and that is where we ought to make sure that we have 
those kind of resources.
    I look at the opportunity for corporations to be involved 
is gravy, or the real cream, where we can get some wonderful 
things done, bring more people in the park, enhance the 
wonderful resources we have, but let us figure out a way to 
sustain the National Park Service.
    Mr. Grijalva. Thank you. Mr. Bishop?
    Mr. Bishop. Todd, you came close. The three of you missed 
your answer. Obviously, Ms. Bomar, her first call is to Roto-
Rooter. He will solve it easily then.
    I appreciate all three of you for your testimony. We have 
kept you far too long. I apologize for that.
    Mr. Grijalva. Let me turn to our colleague, Mr. Kildee, for 
any comments or questions he might have.
    Mr. Kildee. Mr. Chairman, I appreciate it, but I have no 
questions at this time.
    Mr. Grijalva. Thank you. Let me thank you all and welcome 
the next panel.
    [Pause.]
    Mr. Grijalva. Thank you. Welcome, Director Bomar, again, 
and we look forward to your testimony and the opportunity to 
have a discussion with you about this very important 
anniversary, as I said. Welcome, and your testimony, please.

 STATEMENT OF MARY A. BOMAR, DIRECTOR, NATIONAL PARK SERVICE, 
                U.S. DEPARTMENT OF THE INTERIOR

    Ms. Bomar. Thank you, Mr. Chairman. Good morning to all of 
you.
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 2959 and H.R. 3094, 
bills that would establish a fund for the centennial of the 
National Park Service.
    The Department strongly supports establishing a special 
fund to provide $100 million a year for the next 10 years to 
support the National Park Service projects and programs, as 
both bills would do.
    We appreciate the time and interest that you, Mr. Chairman 
Grijalva, and Mr. Bishop and others have already devoted to 
this effort. We are grateful to you, Mr. Bishop, and to Mr. 
Young for introducing H.R. 2959, the administration's 
legislative proposal for establishing the National Parks 
Centennial Challenge Fund.
    Secretary Kempthorne and I are very excited about 
partnering with the American people on innovative projects and 
programs that will capture the imagination of the public and 
that will welcome and inspire generations who will inherit the 
great national treasures under our stewardship.
    We also appreciate the alternative approach that you, Mr. 
Chairman, and Mr. Rahall have introduced. The emphasis of H.R. 
3094 places on diversity programs, professional development, 
and education is consistent with my own goals, as director of 
the National Park Service.
    The president asked for a report on implementation of the 
Centennial Initiative by May 31, 2007. Secretary Kempthorne led 
the Department and the National Park Service in an 
unprecedented effort to reach out to the American public to 
listen to their ideas for future goals for our National Parks, 
with ideas from more than 40 sessions throughout the nation, 
and for further discussion among park managers and staff. From 
these sessions, five overarching goals emerged. They are 
articulated in the Secretary's May 31 report, ``The Future of 
America's National Parks.'' Our efforts now are focused on two 
fronts.
    First, each park superintendent and program manager has 
been asked to complete implementation strategies documents this 
summer for every unit that describes their vision desired 
accomplishments for their individual areas to support those 
five overarching goals.
    Second, the Service, park employees, and partners are 
working together to propose centennial projects and programs 
for 2008 and 2009. Secretary Kempthorne and I plan to report on 
the individual park and program centennial implementation 
strategies and announce centennial projects and programs 
approved for funding for consideration for 2008 later in 
August.
    There are four areas in which the bills before us today 
approach the centennial differently and which we look forward 
to working with you to address.
    First, we believe that the Challenge Fund matching approach 
will stimulate more private donations and involve more 
Americans in the future of their National Parks. The 
possibility of matching funds has excited our partners and 
enticed new donors, and we have every indication that we will 
readily raise more than $100 million a year necessary for the 
$100 million annual Federal match.
    Second, we believe there should be flexibility in 
allocating funds to different categories of projects and 
programs rather than a formula established by law. By having 
this flexibility, the process for determining signature 
projects and programs will be more responsive to the changing 
needs and conditions over the next 10 years.
    Third, while we understand the Subcommittee's need to meet 
pay-as-you-go requirements, we would prefer that any offsets 
included in the bill come from one or more of the proposed 
mandatory saving proposals listed in the president's Fiscal 
Year 2008 budget.
    Fourth, H.R. 2959 would provide up to $100 million annually 
in mandatory funds that would supplement annual appropriations. 
H.R. 3094 would make the availability of funding contingent 
upon subsequent appropriations and would, therefore, compete 
for funding with annual appropriations.
    Despite some of the differences, the two bills are similar 
in many fundamental respects. Given our shared goals, we hope 
that we have the opportunity for further discussions that will 
enable us to move forward on legislation with language we can 
all agree on.
    Again, we thank you for your time and efforts you are 
devoting to prepare our National Parks for another century of 
conservation, preservation, and enjoyment.
    Mr. Chairman, that concludes my statement. I would be 
pleased to answer any questions that you have or any other 
Members of the Subcommittee.
    [The prepared statement of Ms. Bomar follows:]

     Statement of Mary A. Bomar, Director, National Park Service, 
                    U.S. Department of the Interior

    Mr. Chairman, thank you for the opportunity to appear before you 
today to present the Department of the Interior's views on H.R. 2959 
and H.R. 3094, bills that would establish a fund for the centennial of 
the National Park Service.
    The Department strongly supports establishing a special fund to 
provide $100 million a year for the next ten years to support National 
Park Service projects and programs, as both H.R. 2959 and H.R. 3094 
would do. Establishing a fund to prepare for the National Park 
Service's centennial in 2016 is one of Secretary Kempthorne's top 
priorities, and we appreciate the time and interest that you, Mr. 
Chairman, and Mr. Bishop, and others have already devoted to this 
effort. We are grateful to Mr. Bishop and Mr. Young for introducing 
H.R. 2959, the Administration's legislative proposal for establishing 
the National Park Centennial Challenge Fund.
    Secretary Kempthorne and I are very excited about partnering with 
the American people on innovative projects and programs that will 
capture the imagination of the public and that will welcome and inspire 
the generations who will inherit the great national treasures under our 
stewardship.
    We also appreciate the alternative approach, H.R. 3094, that you, 
Mr. Chairman, and Mr. Rahall have introduced. The emphasis that H.R. 
3094 places on diversity programs, professional development, and 
education is consistent with my own goals as Director of the National 
Park Service. Those goals are to:
    <bullet>  Re-engage the support of the American people for the 
National Parks and rejuvenate their pride in ``the best idea America 
ever had,'' in the famous words of a British diplomat;
    <bullet>  Increase the capacity of the National Park System, 
through increased funding, to meet the needs of a changing population; 
and
    <bullet>  Recruit, retain, train, and prepare a new generation of 
leadership for the National Park Service.
    While we have serious concerns about the funding mechanisms and 
certain other provisions contained in H.R. 3094, we look forward to 
working with this subcommittee to reach agreement on the best means of 
securing the funding necessary to achieve our shared goal of preparing 
our national parks for the next century of stewardship by the National 
Park Service.
    The legislative proposal that the Department transmitted to you 
this past spring began with a directive which was announced on August 
25, 2006, the 90th anniversary of the National Park Service. The day 
before, the President issued a memorandum directing Secretary 
Kempthorne to ``enhance our national parks during the decade leading up 
to the 2016 centennial celebration'' [and] prepare them for another 
century of conservation, preservation and enjoyment.'' From that bold 
directive, the Department developed the multi-year Centennial 
Initiative, which was presented in February as part of the President's 
FY 2008 Budget.
    The Centennial Initiative proposes $3 billion in new funds for the 
National Park Service over the next ten years. Of that amount, $1 
billion is the ``Centennial Commitment''--$100 million in additional 
annual appropriations for each of the next ten years. The other $2 
billion would come from the ``Centennial Challenge''--the challenge to 
individuals, foundations, and businesses to contribute at least $100 
million annually to support signature programs and projects. Each year, 
$100 million in donations would be matched by $100 million of Federal 
funding from the National Park Centennial Challenge Fund, the mandatory 
spending fund that would be established under H.R. 2959.
    We greatly appreciate the support Congress has already shown for 
the Centennial Commitment portion of the Initiative. Both the House-
passed and the Senate committee-approved versions of the FY 2008 
Interior appropriations bill contain the $100 million in additional 
operations funding identified in the President's Budget as Centennial 
Initiative funding. Including the centennial funding, total operations 
funding for FY 2008 would increase by $199 million under the House-
passed version over the FY 2007 level, and by $196 million under the 
Senate committee-reported version. Enactment of operations funding in 
that range would mean that all parks would receive enough funding to 
cover fixed costs in FY 2008, and many would also receive more seasonal 
rangers, more maintenance funding, and more resource protection 
funding, all of which would better enable parks to provide visitors 
with safe, enjoyable, and educational experiences.
    The President asked for a report on implementation of his August 
24, 2006 directive by May 31, 2007. To begin the process of determining 
signature programs and projects, Secretary Kempthorne led the 
Department and the National Park Service in an unprecedented effort to 
reach out to the American public to listen to their ideas for future 
goals for the national parks as we move toward the 100th anniversary. 
During March and April, after planning 12 listening sessions, we 
expanded to more than 40 sessions throughout the nation after the 
initial sessions generated such excitement among the American people as 
well as National Park Service staff. Some of them were led by the 
Secretary and me personally. We also took comments through our website 
and by mail; in total, we heard from more than 4,500 people, including 
many National Park Service employees. From these sessions, and from 
further discussion among park managers and staff, five overarching 
goals emerged. They are articulated in the Secretary's May 31 report, 
The Future of America's National Parks, as follows:
    <bullet>  Stewardship: The National Park Service will lead America 
and the world in preserving and restoring treasured resources;
    <bullet>  Environmental Leadership: The National Park Service will 
demonstrate environmental leadership to the nation;
    <bullet>  Recreational Experience: National parks will be superior 
recreational destinations where visitors have fun, explore nature and 
history, find inspiration, and improve health and wellness;
    <bullet>  Education: The National Park Service will foster 
exceptional learning opportunities that connect people to parks; and
    <bullet>  Professional Excellence: The National Park Service will 
demonstrate management excellence worthy of the treasures entrusted to 
our care.
    The report established these goals not only as the foundation for 
decisions about specific projects and programs, but also to guide the 
work of the National Park Service as we work toward our centennial in 
2016. The report also identified specific performance goals within each 
overarching goal, and gave examples of actions that would fulfill those 
goals.
    Our efforts at the present time are focused on two fronts: First, 
each park superintendent and program manager has been asked to complete 
an implementation strategy this summer that describes their vision and 
desired accomplishments for their individual areas to support the five 
overarching goals. Second, across the Service, park employees and their 
enthusiastic partners are working together to propose centennial 
projects and programs for 2008 and 2009. The projects and programs 
proposed for 2008 are being evaluated in terms of the criteria that 
were finalized in June. At the Secretary's request, the Inspector 
General is engaged in conducting critical point evaluations of how we 
intend to implement the Centennial Challenge. In particular, he has 
highlighted the issues of transparency in the project and program 
selection process and financial accountability.
    Secretary Kempthorne and I plan to report on the individual park 
and program centennial implementation strategies, and announce 
centennial projects and programs approved for funding consideration for 
2008 at the end of August.
    The criteria adopted in June require that all proposed projects and 
programs:
    <bullet>  provide for authorized activities in existing units;
    <bullet>  contribute toward at least one of the five centennial 
goals;
    <bullet>  be consistent with our management policies and planning 
and compliance documents;
    <bullet>  require little or no additional National Park Service 
operating funds to be sustainable; and
    <bullet>  have partners willing to contribute at least 50 percent 
of the project cost in cash from non-Federal sources.
    Beyond those basic requirements, projects and programs are being 
evaluated by National Park Service interdisciplinary review teams. 
Projects approved for 2008 will be analyzed to ensure that the programs 
and projects represent a mix of different emphasis areas--the five 
centennial goals, different-sized parks, different-sized projects, 
multiple park projects, national initiatives, and a mix of projects and 
programs. We have been very clear in our quest for a diversity of 
centennial undertakings; this is by no means strictly about ``bricks 
and mortar'' construction projects. There will be opportunities to 
consider additional bold and innovative projects and programs in future 
years, as parks and their partners rise to the challenge. Over time, 
the list will be updated to add new projects and programs and remove 
completed ones. We look forward to working with you to identify such 
projects and programs.
    Turning to the legislation, H.R. 3094 diverges from H.R. 2959, the 
Administration's proposal, in four fundamental ways, and it is these 
differences that we have concerns with:
    First, H.R. 2959 establishes a partnership program: it makes 
funding from the Centennial Challenge Fund available only upon the 
receipt of funds from non-Federal partners for specific signature 
projects and programs. H.R. 3094 makes funding available from the 
Centennial Fund regardless of how much, or whether any, non-Federal 
funding has been received.
    We believe in the Challenge Fund approach--the idea that if 
obtaining Federal funding for projects depends on first obtaining 
private contributions, we will stimulate more private donations and 
involve more Americans in the future of their national parks. The 
challenge component was first developed in collaboration with 
philanthropic, non-profit, and private groups, and we found broad 
support for the idea of a public-private match in the public listening 
sessions we conducted this past spring. We found the ``challenge'' 
approach to fundraising to be a familiar and accepted concept. The 
possibility of matching funds has excited our partners and enticed new 
donors, and we have every indication that we will readily raise more 
than $100 million a year necessary for a $100 million annual Federal 
match.
    Many of the private contributions are likely to come from small 
cooperating associations and small friends' groups, who are more likely 
to fund innovative educational programs than large, expensive capital 
projects. The Challenge Fund approach makes it possible for these small 
groups to make a vital contribution to the centennial goals.
    Second, H.R. 2959 gives the National Park Service, working with its 
partners, the responsibility for determining which programs and 
projects are eligible for funding, while H.R. 3094 would allocate 
certain percentages of funding for certain types of projects, and have 
decisions on individual projects made by Congress as part of the annual 
appropriations process. We agree that it is desirable to devote 
centennial funding to projects in all of the categories listed in H.R. 
3094: education, diversity, supporting park professionals, 
environmental leadership, natural resource protection, and line-item 
construction. We would add to that list ``enhancing the recreational 
experience'' and ``cultural resource protection'' and then these 
categories would cover most, if not all, of the same types of 
activities and projects that our five overarching goals cover. However, 
we believe that there should be more flexibility in determining how 
much funding is allocated to various types of projects than is possible 
if the spending formula is established by law.
    By having this flexibility, the process for determining signature 
programs and projects will be more responsive to changing needs and 
conditions over the next ten years. Also, we cannot anticipate the 
categories of projects and programs that will be available year to year 
through our selection process. We would not want to miss an opportunity 
to fund a critical program or resource management project because of 
the limitations of the categories.
    Third, while we understand the subcommittee's need to provide 
offsetting funding to meet ``pay-as-you-go'' requirements, we would 
prefer that any offsets included in the bill come from one or more of 
the proposed mandatory savings proposals listed in the President's FY 
2008 Budget. H.R. 2959 does not include any offsets for the mandatory 
spending for the Centennial Challenge Fund, because the 
Administration's proposal was offset by mandatory savings within the 
President's Budget. In contrast, H.R. 3094 proposes to offset funding 
for the Centennial Fund through new or higher fees on commercial 
activities on Federal lands.
    This offset provision would be unacceptable to the Administration 
and difficult for the Department to implement. An across-the-board 
increase in fees would have no correlation to the purposes of those 
fees, while selective increases could result in litigation. Fees are 
not royalties, bonus bids, or rents. The Department charges many 
different cost-recovery fees, and the fee levels are based on the costs 
related to the activity at issue. The Department also charges other 
fees for specific purposes. For example, the National Park Service sets 
franchise fees for concession contracts at levels based upon a detailed 
statutory standard. Such fees are contractual, and changes to existing 
fees require renegotiation of the contracts or referral to binding 
arbitration when agreement cannot be reached, as provided under 
statute. Diverting such fees would be detrimental to these important 
programs; raising the fees could result in contractual disputes and 
litigation and make those activities cost-prohibitive for the users.
    Fourth, H.R. 2959 would provide up to $100 million annually in 
mandatory funds that would supplement annual appropriations. Yet, while 
H.R. 3094 provides that ``unobligated amounts in the Fund shall be 
available without further appropriation,'' the bill would make funds 
available ``only for Projects approved in Acts of appropriation for the 
Department of the Interior.'' Since availability would be contingent 
upon a subsequent act of appropriations, these amounts would be scored 
against that appropriation action and thus counted against the 
discretionary cap. In effect, the Centennial Challenge funds would have 
to compete for funding within annual appropriations, rather than be in 
addition to annual appropriations.
    Despite these differences, the two bills are similar in fundamental 
respects:
    <bullet>  Both bills provide for an infusion of $100 million a year 
in Federal funding for Fiscal Years 2008 through 2017 to pay for 
National Park Service projects and programs that would fulfill certain 
purposes or goals;
    <bullet>  Both bills use the mechanism of a separate Treasury 
account in an effort to supplement annual discretionary appropriations;
    <bullet>  Both bills allow for donations from private entities to 
help pay for projects while retaining current rules pertaining to the 
solicitation and receipt of donations by National Park Service 
employees; and
    <bullet>  Both bills require annual reports to Congress on 
signature programs and projects, ensuring a flow of information between 
Congress and the Department on the use of funds provided in the 
Centennial account.
    Given our shared goals, we hope that we will have the opportunity 
for further discussions that will enable us to move forward together on 
legislation with language we all agree on.
    As Secretary Kempthorne said in his report to the President, ``the 
golden years for the national parks have not passed, but are ahead.'' 
Again, we thank you for the time and effort you are devoting to the 
effort to prepare our national parks for another century of 
conservation, preservation and enjoyment.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you or other members of the subcommittee may have.
                                 ______
                                 
    Mr. Grijalva. Thank you very much, Madam Director, and, as 
always, we appreciate your presence and your comments and 
testimony before the Committee.
    Ms. Bomar. Thank you, Mr. Grijalva.
    Mr. Grijalva. Just a couple of questions. I think you 
mentioned, right now and also in your testimony, that your 
preference and the preference of the Department is to use the 
mandatory proposals listed by the president in his 2008 budget 
as the method to go.
    Let me reference one, which, I think--there are six or more 
there, but the one that is the biggest revenue generator, I 
would think, is the drilling in the Arctic National Wildlife 
Refuge. I bring that point out because the historic reality is 
that the plan to drill in the arctic refuge has failed to 
become law even under previous majorities, so is it realistic 
to propose that that is the principal revenue source for the 
challenge and the match?
    Ms. Bomar. Sir, I know that we did not address the pay-as-
you-go in our legislation. However, we have a list of offsets 
that are in the budget, the Fiscal Year 2008 budget, and I 
would be glad to offer you a copy of that so I can pass that in 
today. Thank you.
    Also, I have with me today Pam Hayes, who is the director 
for the Department of the Interior for budget and finance, and 
she would be glad to discuss the dialogue with you on the----
    Mr. Grijalva. Madam Director, I think, specifically, my 
question is, if ANWR is the source with the most sufficient 
revenue to deal with the question we are talking about, and it 
realistically has not received a majority and has not been 
acted upon, then what guarantees on that offset do we have in 
the future, if that is a sufficient revenue source that we are 
talking about as one of the mandatory proposals?
    Ms. Bomar. Right. Sir, again, my testimony did not reflect 
that, as I said, but I have a list of proposals as offsets for 
the Department of the Interior, and I would be more than glad 
to share that with you or discuss that. I hope that we can 
continue dialogue, Mr. Chairman, and that we can talk further 
about this, but the Department is certainly willing to work 
with you, sir, and, again, I would be glad to address those 
proposals or have our director do that for you.
    Mr. Grijalva. Yes. I bring that point up because, as we go 
forward with both pieces of legislation, the offset becomes the 
critical question for whether it is the match or whether it is 
the proposal that I have introduced, the point being that, in 
your testimony, you talk about how commercial activities that 
we propose as an offset, that they are set to just recover the 
costs associated with them, yet multiple GAO studies have found 
that the Department's fees do not come close to covering agency 
costs.
    Assuming that is the case, and I will let you respond to 
it, shouldn't these cost recovery fees be raised so that the 
agency's budgets are not subsidizing any of these commercial 
activities?
    Ms. Bomar. Many of the Federal fees, Mr. Chairman, already 
in place are in place through legislation, as with the Federal 
recreation fee program, and already designated to cost of 
operations for those fees. We feel that the administration's 
bill, certainly showing the mandatory funding, is the way that 
we would like to proceed. We do feel that the fees right now 
are designated toward certain, whether it is commercial or 
leasing, leasing fees in National Parks stay the National Park 
where those fees are generated, just as the cost of operations 
for entrance fees, for example.
    Mr. Grijalva. Thank you. How can you make sure that 
projects which are attractive to donors, big-ticket projects 
and big-ticket donors, will not take priority over the basic 
necessities, maintenance backlog, that you have spoken to this 
Committee in the past?
    Ms. Bomar. Yes. Coming back to the projects, the projects 
have all been generated as a need by every National Park unit. 
We have a system, a management information system, a database 
that is in place that all projects have to come through that, 
and they are generated at the park.
    The parks, working with their partners, and I brought with 
me today, you will see here partnership letters from all over 
America. There are over 300 partnership letters of support of 
commitment for funding that are going through a screen-out 
evaluation process this week. As we speak, we have a review 
team that has come in to review all of the projects.
    These are absolutely not dominated by the partners. It is 
started from a grassroots effort from the parks that have come 
up through the system. It is in accordance with all Federal 
regulations. These projects are consistent with management 
policies and are generated at the park level certainly in 
tandem with the partners.
    Mr. Grijalva. Thank you. Let me turn to my colleague, Mr. 
Bishop, for any questions. We are going to be called to a vote. 
We will try to get as many questions as we can.
    Mr. Bishop. Ms. Bomar, I hope you can also stay through 
this panel because I know there are going to be several rounds 
of questions that we are going to have for you.
    Ms. Bomar. Yes.
    Mr. Bishop. First of all, just for the record, the director 
has actually submitted at least seven different potential 
saving areas, each of which by themselves would fund the yearly 
requirement that is there. However, if you were actually to go 
to ANWR--to be technically correct, no one has ever suggested 
drilling in ANWR Section 1002 that was set aside by President 
Carter for economic development. If you did that, you could 
fund the 10-year program in one fell swoop. Actually, you could 
do it four times with the 10-year program and have energy 
independence at the same time.
    So you have a wonderful idea, Mr. Chairman. We should go in 
that direction.
    Ms. Bomar, you have described your plan in a way that 
involves both new partners and the public. The alternative 
proposal seems like a no-brainer; it is easy. There are no 
strings attached to the billion dollars; it will always be 
there. Why, then, is the plan that actually involves a matching 
grant preferable to you?
    Ms. Bomar. It is not just about the money. Mr. Bishop, good 
question. It really is about reengaging the American public 
with their National Parks. We have found that reengaging 
foundations, communities, individuals, and individual Americans 
with their National Parks; they want to be part of their 
National Parks.
    We believe that, over many years, we have had many of our 
friends and foundations that have been friends working with us 
now as partners for the last 30 and 40 years. I, myself, have 
come from many partnership parks, as you know, from the 
Northeast Region and parks throughout America. This book 
confirms that, that partners want to be involved. They want to 
be part.
    Often, they will say, ``We will put in a dollar-for-dollar 
match, but when is the Federal government going to step up also 
and show really good-faith effort to be a partner on both sides 
of the house?'' And you can see here, from all of the 
partnership levels, that many of them--it is, again, about 
building constituents. It is about building the future stewards 
of America. They want to be involved with their National Parks.
    This team that has just come in before me, sir, this panel, 
have answered those same questions by saying they want to be 
involved. Americans love their National Parks. The challenge 
funding approach, matching private funds with Federal funds, 
will leverage, and it gives more of an incentive also to 
Americans to get involved with their National Parks.
    Why should donors and the private sector be interested, you 
say, in the funding? Many of our partners, as I said, in every 
state; they do not want to pay for basic services. It is 
augmenting. It is giving the margin of excellence from 
partners. I have been involved in many large partnerships. 
Looking at one of the projects that we have talked about 
before, at the Ben Franklin Museum, that is an $18 million 
project. Twelve million would be put up by partners that care 
about their community, that care about the National Parks. They 
are looking for a Federal match to be a true partner with the 
National Park Service.
    Right now, there is a large credit company that has just 
put out a recent survey that has said, Tell us what your top 
priorities would be as card holders, and many of them come back 
and said, About caring for the National Parks. They have 
actually voted on this. It came out as one of the number one 
projects that Americans would like to be involved with.
    Mr. Bishop. Ms. Bomar, I have actually got eight questions, 
so I am, obviously, going to run over time with this one.
    Let me just get one comment here, as my time runs down. 
Sometimes I think we underestimate the expectations of what the 
private sector is willing to do, as to what they will pay to do 
it. Just as a personal example, and this is not a one-to-one 
match, but it is as close as I am going to come. I am an old 
school teacher sitting in the school, realizing that every 
athlete got some kind of a scholarship because it was the 
popular thing to do in going to the community, and also the 
business department could go to every business and get 
scholarship monies.
    I was the department chair of history, and I decided I was 
tired of that. There is no natural constituency out there in 
the business world for history scholarships, but what we were 
able to do was become creative, and, as a department, we came 
up with a whole new approach to something, which actually ended 
up, after a whole lot of effort on our part, coming up with 
more money that we were giving out for history scholarships 
than the athletic department was giving out for their 
scholarships.
    People are willing to pay for the so-called ``non-glamorous 
grunt things'' if they think they are contributing to the 
whole.
    I think we are really being a little bit skeptical about 
what people will support and what they will not support, even 
though I made the crack about Roto-Rooter. It is possible. It 
is not only possible; I think it is probable.
    In my experience in the state legislature, I saw the same 
thing in our capital facility outlook, in our capital facility 
budgeting.
    Ms. Bomar. Yes.
    Mr. Bishop. I think sometimes we are underestimating the 
ability of people to step up to help.
    Ms. Bomar. Absolutely right. Many companies, and it is not 
to commercialize the National Parks, have come in----
    Mr. Bishop. Wait. That is my third question, so go ahead.
    Ms. Bomar. All right. They have come in to say, that have 
owned air-conditioning companies. I was at the missions for 
seven years. There was an air-conditioning company. We needed 
some air conditioners for the missions. Many companies stepped 
up to say they would be glad to put air conditioning. That 
might not be a sexy project to some. Again, I try not to lose 
sight of--we have construction money, we have fee money. We 
have done a terrific job of improving our facilities. The 
President and Congress, I salute you for keeping us focused on 
improving our facilities, our maintenance.
    Again, you are right, sir. The American public, when it 
comes to their home back yard, in any of our cities where our 
parks are located, people are glad to step up.
    Mount Rushmore is another perfect example. My deputy 
director here. We have found that the American people do love 
their National Parks, and they are willing to step up and fund 
many projects that we often hear they are not sexy projects, 
but after working with many friends groups, and, again, these 
letters verify that.
    At universities, you talk about sports or education. 
Universities have stepped up. We have many university partners 
in here: city, state, local government. There is a group in 
this week that are evaluating the projects under very stringent 
criteria.
    Mr. Grijalva. If I may, we are going to recess so we can go 
take these votes and return and continue this discussion with 
you.
    Ms. Bomar. All right.
    Mr. Grijalva. I think the point Mr. Bishop made is well 
taken. I think private donations are important. I think that 
the fundamental difference in the two bills is we do not tie 
the two together. There is no prohibition that people, private 
folk, can give to our parks. We just do not tie them together. 
We will get back and discuss that.
    Ms. Bomar. That is right. Thank you very much, Chairman. 
Thank you.
    [Whereupon, at 11:17 a.m., a recess was taken.]
    Mr. Grijalva. Thank you very much. Resuming the meeting, 
Madam Director, thank you for your patience, and let me turn to 
our colleague, Mrs. Capps, for any questions or comments she 
may have.
    Mrs. Capps. Thank you and welcome, Director Bomar, and 
thank you for you testimony and, again, for this hearing, which 
I think is very timely and important. My questions will follow 
along and, I hope, not be repetitive to what our Chairman was 
asking, but I think it is very important for us to get to the 
heart of what this partnership is. The administration bill 
which proposes to leverage additional private funding by 
creating a matching program where Federal funds would be made 
available equal to amounts contributed by nonFederal sources, 
up to $100 million a year.
    Here is my question, and these are hypotheticals, but this 
is what we need to work on. What happens if only $25 million is 
raised?
    Ms. Bomar. Yes.
    Mrs. Capps. You talk about the interests of the private 
sector, but we do not know for sure if they are going to step 
up to the plate.
    Ms. Bomar. Yes. We have had many friends groups that have 
been donating to the National Parks, Mrs. Capps, for many, many 
years, and we have 170 friends groups that, in 2005, donated 
$68 million to the National Parks. You know, it is sad that 
there was not a matching fund in place for the partnership 
then.
    We look at the National Park Foundation: $22 million came 
in.
    So I do feel it is very important, on the partnership side, 
and it is also the incentive that we create with the 
partnerships.
    Mrs. Capps. This is an aside on this. We are assuming that 
there is an administration in place that wants to invest $100 
million. An administration could theoretically say, ``Well, we 
do not want to put in more than $25 million.'' So you might 
then just not work very hard.
    What safeguards are in this? Let me ask you.
    Ms. Bomar. Yes.
    Mrs. Capps. You are going to speak to your administration, 
which has made that pledge, and I applaud you for that, but 
this legislation is written for any administration. We hope no 
one would be as stingy as I mentioned, but here is the follow-
up question: The challenge for you, as the administration, 
then, is to raise $100 million a year, and you have talked 
about the friends and so forth. But for the parks, if you get 
the full $200 million a year, you have to make sure that 
private sources contribute and invest. I want friends groups to 
be involved, but I want you to encourage more investment from 
private sources.
    The devil is in the details. How are you going to 
specifically raise the money? What steps will you take to 
incentivize the donations? Are these steps outlined in the 
administration's proposal?
    Ms. Bomar. Yes. Let me come back again to the partnerships. 
Again, our telephone and fax machine have been off the wall 
with these proposals coming in from partners. Over 300 letters 
that are committed. When we sent these requests out, to make 
sure that we have a firm commitment that you have the funding 
in place, that you want to be a partner, and there is a 
project--you have worked with the part--so there is over $300 
million in projects, and over my 17 years with the National 
Park Service, that has been really going on, working with 
partners, like the Pew, the Penn Foundation, many other 
foundations.
    In fact, 62 percent of these projects that have come in are 
solely related to foundations, nonprofit groups, city, state, 
government, some non-NGO's.
    Mrs. Capps. I hear you say that. I guess I am a little 
concerned with the lack of safeguards in the proposal by the 
administration as a whole.
    Here is a more challenging one perhaps, which also lurks. 
We have seen these proposals, these ideas. Some of my 
constituents with our Los Padres National Forest talk about the 
Disney-fication, when recreational groups seek private funds, 
and the sort of substantial change in the way the public land 
appears to the visitor. It looks like a billboard. They are 
concerned. I have seen what has happened in public schools with 
the stadiums now that endorse, you know, well, this is just a 
given.
    When we start this process, I think we are going to be 
really careful. Here is another hypothetical: What happens if a 
private company--we have talked about Roto-Rooter today--wants 
to donate $10 million for a visitors' center at Channel Islands 
National Park? That is, as you know, the park in my district.
    Ms. Bomar. Yes.
    Mrs. Capps. Eventually, the new visitors' center, brought 
to you by Roto-Rooter, is constructed. What safeguards would 
have to be in place, and are these in your proposal, to ensure 
that someone, like Roto-Rooter, is not making policy decisions 
at the park.
    Money sometimes is totally lack of strings, but it is not 
always, and it is our job, I think, as the government, to make 
sure that policy is driven by the public's interest in elected 
officials setting policy who, hopefully, do not have any 
ulterior motive and do not want to, you know, skew the policy 
in a certain direction.
    Friends can be friends. They can be altruistic friends, but 
they can also be self-serving friends. Those safeguards, I 
think, go, for me, to the heart of anything we want to put in 
place.
    Ms. Bomar. It is an excellent question, and I am glad that 
you have brought it up. DO-21, ``Fundraising and 
Negotiations''; we are absolutely going to be in conformance. 
It is not to commercialize the parks. You will not see a golden 
arch at any National Park. We will make sure that none of our 
employees solicit donations.
    For many years, I come back to philanthropy has been a big 
part of the National Parks. Thirty National Parks were created 
through philanthropy.
    Mrs. Capps. Absolutely.
    Ms. Bomar. But we will make sure that we stay absolutely 
within conformance with DO-21. Donations are not to be used to 
offset appropriated funds or to meet recurring operation 
requirements, and employees will not solicit donations.
    In DO-21, it clearly states how you can recognize donors. 
That is done in a very tasteful matter. This is not about 
commercializing our National Parks.
    Mrs. Capps. I guess it goes to the difference between 
rulemaking and standards, and I have to tip my interest on 
behalf, and there is just a difference there. I appreciate your 
saying all that you say, and I appreciate what you have done to 
cultivate all of these wonderful friends that we have, and yet, 
I think, in the final analysis, I do appreciate what our 
Chairman and our Committee, overall Committee Chairman, have 
struck as a----
    Ms. Bomar. Thank you, Mrs. Capps, and also, to reemphasize, 
all of fundraising and working with donations and partners, it 
is all done through a Federal agreement. Agreements will 
absolutely be in place. They are in place today, and I really 
truly feel we have been very transparent and can all pass the 
red-faced test about how ethical we have been in making sure 
that these agreements are in place.
    Mrs. Capps. Well, that speaks well to your directorship. 
Thank you very much.
    Ms. Bomar. Thank you.
    Mr. Grijalva. Mr. Bishop?
    Mr. Bishop. I am sorry. I am somewhat confused here. You 
already can take donations now. Right?
    Ms. Bomar. Yes, sir, we can.
    Mr. Bishop. And you have these regulation whatever, 21, 
whatever it is called.
    Ms. Bomar. Yes. ``Fundraising and Donations.''
    Mr. Bishop. So that prohibits you from commercializing the 
stuff now.
    Ms. Bomar. Absolutely.
    Mr. Bishop. If a bill were passed that you actually got 
matching funds, these regulations are still in place.
    Ms. Bomar. Absolutely, they are in place, sir, yes.
    Mr. Bishop. What you are trying to tell us, I guess, is if 
you are willing to sell out the parks, you could sell out the 
parks now. It is not going to be a difference.
    Ms. Bomar. Absolutely. There is nothing different. These 
funds will augment our appropriations. They are a supplement to 
our appropriations. It is another way of getting projects 
completed. Again, those agreements have always been in place. 
They are absolutely very stringent about what we can do and 
what we cannot do.
    Mr. Bishop. All right. I told you I had eight questions, 
total. That was number nine. I just added that one. I am sorry.
    Ms. Bomar. All right.
    Mr. Bishop. Let me go to a couple of the others. One of the 
things we did not do in our bill that, I think, may have been a 
mistake is in-kind donations. Do you have an opinion on whether 
in-kind donations should be added to cash donations as well?
    Ms. Bomar. Yes. There has been a lot of discussion about 
in-kind donations. Our bill presently does not address that, 
about having in-kind donations, and we certainly would like to 
keep the dialogue going about in-kind donations. However, it is 
the reporting to make sure that they are in conformance with 
the IRS requirements. But we certainly would like to continue 
dialogue about----
    Mr. Bishop. It is something that could be done if we worked 
through the details of how you----
    Ms. Bomar. Yes, Mr. Bishop.
    Mr. Bishop. OK. In the difference between the two bills, 
there are a couple of things that I would just like a quick 
reaction to.
    One is in the bill that you actually asked for, you 
specifically have a recreation component.
    Ms. Bomar. Yes.
    Mr. Bishop. It was not in the other version. Is that of 
significance to you that that become one of the areas of 
emphasis?
    Ms. Bomar. Thank you. It is a very good question. I 
appreciate that.
    After we received the president's mandate, part of that 
criteria was go out and seek comments from the American public. 
It was clearly defined. We had 40 listening sessions throughout 
America. The five goals that were established came from the 
American public. The citizens were heard when we went through 
that process.
    Recreation, professional excellence, stewardship, 
environmental leadership, and recreation were part of the goals 
that clearly emerged through all of the dialogue that we had at 
these listening sessions.
    Mr. Bishop. You also mentioned, in your testimony, the idea 
of flexibility. The one bill gives you flexibility of how you 
spend the money; the other divides it up into percentages.
    Ms. Bomar. Yes.
    Mr. Bishop. I see. Let me skip that one because you 
mentioned that in your testimony. You have covered it.
    Ms. Bomar. Yes.
    Mr. Bishop. Unless you really have a desire to say one more 
word.
    Ms. Bomar. No. Again, it really is a grassroots effort. 
Those goals really were established. We would like flexibility, 
so yes. Rather than putting percentages on the goals, I know 
that stewardship on our administration's bill clearly includes 
cultural resources, which is very important to us as well, as 
well as natural resources.
    Mr. Bishop. This is maybe an unfair question because we 
have not talked directly about this at any given time, but one 
of the concerns we have always had is that visitorship in the 
so-called ``crown jewels'' of the park system is on a decline, 
especially those amongst the certain demographic groups you are 
after.
    The two areas that seem to have had an increase are the 
Mall in Philadelphia, both of which you were directly involved 
in.
    Ms. Bomar. Yes.
    Mr. Bishop. How does your success in those particular 
areas, how can that be transferred over to the rest of the park 
system that is not having that same kind of success in 
increasing its visitorship?
    Ms. Bomar. Again, it is through solid, great partnerships, 
but also, you know, we have had the success there by being 
relevant, by making sure that our stories are relevant today. 
When we went through the reports to the president, the goals 
that we outlined, clearly we have to change: changing 
demographics, migration, high-tech today.
    I was successful, Mr. Bishop, because we were relevant. We 
made sure that our staffing was relevant, that we were telling 
relevant stories, and people felt welcomed, but much of that 
was focused on really true, great partnerships with the 
community, with tourism, with recreation. It takes a village to 
raise a child, and it is the same in National Parks. It takes a 
community working with those parks, working together in 
tourism. We should be looking thematically across different 
parks. How can larger Civil War sites help the smaller ones?
    Mr. Bishop. I agree with you. That is probably not the 
phrase I want to hear in the future, but I agree with you. Do 
not give them any more ammunition than they already have here.
    Let me just ask one last question, and I will get you off 
of the hook here.
    Ms. Bomar. Yes.
    Mr. Bishop. Since one version talks about fees as a way of 
raising the revenue, what effect would imposing additional fees 
on concessionaires, for example, which is a commercial entity, 
have on the National Park System?
    Ms. Bomar. I am glad you brought up the fees. I was talking 
to the congressman for just a moment from the Virgin Islands, 
Donna Christensen, and we go through civic engagement, and many 
have said, ``Mary, we cannot raise fees. The American public 
have complained.'' There are only fees in 168 parks out of 391, 
and the fee issue of raising fees; we have had outcry from the 
public about raising some of those fees. So, yes, that is 
probably not the wise way to go, as far as raising fees, 
whether they are with concessions; it comes back to the 
American public.
    Mr. Bishop. Thank you. I appreciate your patience. I will 
yield back. I am over time again, anyway.
    Mr. Grijalva. Thank you very much, Director. I think the 
distinction that is being made is important to make: The issue 
of increases of fees for visitors, and what the legislation, 
3094, talks about is fees for commercial activities. Those are 
two separate items. 3094 does not touch the issue of visitor 
fees increase.
    But, anyway, at some point, to submit, and not for now, 
that out of the $68 million, the figure you gave of the private 
donations that are coming into our park system now, because the 
administration's legislation and my colleague's legislation 
talks about a cash-only kind of match as we go forward.
    Ms. Bomar. Yes.
    Mr. Grijalva. Anticipating that, could you kind of, not for 
now, break down for the Committee, and if you could submit to 
it, that $69 million in terms of in-kind or cash only----
    Ms. Bomar. Yes, I can. I can bring that to you, absolutely. 
We can get those figures for you, sir.
    Mr. Grijalva. Thank you. With that, let me thank you, 
unless--Mr. Bishop, do you have any additional questions?
    Ms. Bomar. I just want to say, I appreciate your time that 
you have spent on this effort. I do feel that there is a great 
excitement, and you probably want to ask if there are any other 
questions, but there is a great excitement out in the National 
Parks, with our staff. They are excited about coming to work, 
to give good visitor service, and I truly feel that this really 
was a grassroots. The National Park Service should 
institutionalize going out to the American public and seeking 
their ideas and input.
    I just appreciate it, Mr. Chairman and Mr. Bishop. Thank 
you for your time, for giving us the forum. It is nice that we 
all dance together with the National Park Foundation and the 
Centennial.
    Mr. Grijalva. Thank you for the fine work that you do, and 
let me invite the next panel.
    Ms. Bomar. Thank you, sir. Thank you.
    [Pause.]
    Mr. Grijalva. Let me welcome this panel. Thank you very 
much for your patience, and I am looking forward to your 
testimony.
    Let me begin with Mr. Vin Cipolla, president and CEO, 
National Park Foundation. Sir?

         STATEMENT OF VIN CIPOLLA, PRESIDENT AND CEO, 
                    NATIONAL PARK FOUNDATION

    Mr. Cipolla. Thank you. Thank you, Mr. Chairman and Members 
of the Committee. Thank you for the opportunity to appear 
before you today. We commend the sponsors and this Committee 
for their commitment to preparing our National Parks for the 
challenges and opportunities of the next century.
    My name is Vin Cipolla, and I am the president and CEO of 
the National Park Foundation. The National Park Foundation is 
the national charitable arm of the National Park Service, 
chartered by Congress in 1967 to encourage private 
philanthropic support for America's National Parks. Involvement 
by a diverse charitable community deepens connections to and 
understanding of both the history of the parks and how much 
they mean for our future.
    Since February, when the president focused the attention of 
the Nation on the National Park Service Centennial in 2016, 
there has been a lot of thoughtful dialogue, including the 
proposal by Chairmen Rahall and Grijalva on how to ensure the 
future of our National Parks.
    As the national charitable partner for the parks, we think 
it is key to continue the rich tradition in which the parks 
were founded and have been sustained: public and private 
interests working in tandem.
    Both of the proposed bills recognize the importance of this 
complementary approach. The National Park Centennial Challenge 
Fund Act [H.R. 2959] seeks to raise up to $100 million each 
year over a ten-year period from private donations and to match 
those donations with Federal funding up to $100 million 
annually.
    The proposal introduced by Chairmen Rahall and Grijalva 
[H.R. 3094] clearly anticipates private philanthropy as well. 
These proposals continue the long history of private 
philanthropy that has created our unequaled system of National 
Parks.
    More than 100 years ago, people from across this country 
gathered to protect the places they loved and the places they 
knew would matter long into the future. It is their spirit and 
ideals on which the National Park System was founded. Together, 
they had the vision to transform the natural treasures of our 
country into the first National Parks so future generations 
could enjoy these magnificent places and learn about our 
nation's proud history. Thirty parks were directly created 
through donations, as Director Bomar pointed out.
    The future of philanthropic support is in both diversifying 
the opportunity to experience National Parks and in 
diversifying the opportunity to support our parks. The National 
Park Foundation and friends groups, cooperating associations, 
and others continue this legacy of public-private partnership. 
Together, we are reinvigorating a movement for park 
philanthropy to benefit all parks.
    In the United States, charitable giving in 2005 exceeded 
$260 billion, of which approximately $90 million went to causes 
related to the National Park Service mission: education, 
health, the arts, culture and humanities, and the environment. 
The National Parks received only a very small portion of these 
gifts. We can do better.
    Our preliminary conversations with major donors and 
philanthropic organizations surrounding the centennial have 
been, indeed, very promising. We see great opportunities to 
make the National Parks an important and prominent place for 
individual charitable giving. In the last Fiscal Year, we, at 
the National Park Foundation, have been able to increase our 
number of individual donors by 40 percent.
    Also, throughout its history, the National Park Foundation 
has worked with many significant corporate partners. Their 
support has enabled the National Park Service to enhance and 
expand important programs in such areas as education, 
preservation, community engagement, health, and wellness and 
volunteerism.
    Unilever, the longest-standing corporate partner of the 
National Park Foundation, has been working with us for nearly 
15 years and, through one of the many programs they fund, has 
provided nearly 200 of our parks with 1,100 miles of recycled 
lumber. This product has been used on the decking around Old 
Faithful, the dry dock for the USS CONSTITUTION, and miles of 
park trails and boardwalks.
    For the last eight years, Ford Motor Company has helped 
place Ph.D. students in parks across the system to help park 
managers understand and find solutions to challenging 
transportation issues.
    American Airlines has helped us fund critical programs and 
global conservation initiatives dealing with migratory birds.
    Coca-Cola North America recently pledged several million 
dollars to help parks across the system restore hiking trails 
for visitors.
    Having worked with the parks for such a long time and in 
such significant ways, I can assure you that both the 
Foundation and its partners understand and share the concern 
that corporate support for parks not become confused with, and 
not lead to, commercialization. We work carefully within 
Director's Order 21 to ensure that corporate involvement 
adheres to this guideline.
    Today's media environment creates multiple opportunities 
for donors and parks to work together in new and creative ways 
that do not lead to the commercialization of parks, such as the 
way we can use the Web to express a partnership and encourage 
engagement.
    This renewed interest in encouraging park philanthropy and 
partnerships creates many opportunities.
    The first is the opportunity to connect and strengthen the 
fabric of support for parks on a national and local level.
    The second is the opportunity to expand the dialogue around 
park partnerships as richer conversations about parks lead to 
incorporating best practices and innovation, allowing us to 
bring new ideas and models to National Parks.
    Third is the opportunity to better support the National 
Park Service in its efforts to enhance important youth and 
diversity programs system-wide.
    We are glad to see the focus on children and diversity in 
the proposed legislation. While charitable involvement of the 
American people has helped preserve and protect our parks, it 
has also connected children to our parks, something the Federal 
government cannot do alone.
    The National Park Foundation continues to expand and 
support our own programs surrounding this initiative. We have 
seen support for the Junior Ranger and WebRangers programs 
increase over the last two years, and we continue to expand and 
increase Electronic Field Trips where we connected 37 million 
children in a simultaneous visit to our parks during the last 
National Park Week.
    We will continue to work to improve the relationship of 
children to their National Parks, and we have a lot underway. 
Additionally, the African-American Experience Fund is working 
to connect people with National Parks that present African-
American history and culture.
    We, at the National Park Foundation, believe there is much 
more potential in philanthropy. We will be convening a National 
Leadership Summit on Philanthropy at the University of Texas in 
Austin on October 14-16 to help bring together charitable 
leaders from across our nation who care about our parks.
    The state of our parks at the Centennial Celebration----
    Mr. Grijalva. If I may.
    Mr. Cipolla. I am over----
    Mr. Grijalva. Over.
    Mr. Cipolla.--and I am at the end, as well, so thank you 
very much. We applaud the effort to increase base funding of 
the Park Service so it can carry out its mission more fully and 
complement the activities of the charitable side. Thank you.
    [The prepared statement of Mr. Cipolla follows:]

             Statement of Vin Cipolla, President and CEO, 
                        National Park Foundation

    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before you today. We commend the sponsors and 
this committee for their commitment to preparing our national parks for 
the challenges and opportunities of the next century. My name is Vin 
Cipolla and I am the President and CEO of the National Park Foundation. 
The National Park Foundation is the national charitable arm of the 
National Park Service, chartered by Congress in 1967 to encourage 
private philanthropic support for America's national parks. Involvement 
by a diverse charitable community deepens connections to an 
understanding of both the history of the parks and how much they mean 
for our future.
    Since February, when the President focused the attention of the 
nation on the National Park Service Centennial in 2016, there has been 
a lot of thoughtful dialogue--including the proposal by Chairmen Rahall 
and Grijalva--on how to ensure the future of our national parks. As the 
national charitable partner for the parks, we think it is key to 
continue the rich tradition in which the parks were founded and have 
been sustained--public and private interests working in tandem.
    Both of the proposed bills recognize the importance of this 
complementary approach. The National Park Centennial Challenge Fund Act 
(H.R. 2959) seeks to raise up to $100 million each year over a ten year 
period from private donations and to match those donations with federal 
funding up to $100 million annually. The proposal introduced by 
Chairmen Rahall and Grijalva (H.R. 3094) clearly anticipates private 
philanthropy as well. These proposals continue the long history of 
private philanthropy that has created our unequalled system of national 
parks.
    More than one hundred years ago, people from across this country 
gathered to protect the places they loved and the places they knew 
would matter long into the future. It is their spirit and ideals on 
which the National Park System was founded. Together, they had the 
vision to transform the natural treasures of our country into the first 
national parks so future generations could enjoy these magnificent 
places and learn about our nation's proud history. Thirty parks were 
directly created through donations.
    Private philanthropy has traditionally been held in the hands of a 
few individuals whose commitment is strong, consistent, and valuable. 
We view the future success of private support not only in the capable 
hands of Congress and the National Park Service, but also in the hands 
of the 80 million plus national park visitors and enthusiasts. The 
future of philanthropic support is in both diversifying the opportunity 
to experience national parks, and in diversifying the opportunity to 
support our parks.
    The National Park Foundation and friends groups, cooperating 
associations and others, continue this legacy of public private 
partnership. Together, we are reinvigorating a movement for park 
philanthropy to benefit all parks.
    This new century presents wonderful opportunities for our national 
parks, but also serious challenges. The parks exist in increasingly 
complex environments with varied and often competing demands placed 
upon them: the U.S. population is growing older and more diverse, 
children are spending less time outdoors, and technology is bringing 
rapid changes. The National Park Service and we as a nation are 
challenged to respond.
    We believe the American people, like the generations before, are 
ready to embrace this challenge and provide the innovation, creativity, 
and charitable support necessary to protect these places for the next 
100 years and beyond. In the United States, charitable giving in 2005 
exceeded $260 billion. Of which, approximately $90 billion went to 
causes related to the National Park Service mission--education; health; 
arts; culture and humanities; and the environment. The National Parks 
received only a small portion of these gifts. We can do better. Our 
preliminary conversations with major donors and philanthropic 
organizations surrounding the Centennial have been very promising. We 
see great opportunities to make the national parks an important and 
prominent place for individual charitable giving. In the last fiscal 
year, we've been able to increase our number of individual donors by 
40%. We believe these gifts pay dividends in deepening not just the 
financial, but also the emotional commitment that Americans have to 
their parks.
    Throughout its history, The National Park Foundation has worked 
with many significant corporate partners. Their support has enabled the 
National Park Service to enhance and expand important programs in such 
areas as education, preservation, community engagement, health and 
wellness, and volunteerism. Unilever, the longest-standing corporate 
partner of the National Park Foundation, has been working with us for 
nearly 15 years and through one of the many programs they fund has 
provided nearly 200 of our parks with 11,000 miles of recycled lumber. 
For the last eight years, Ford Motor Company has helped place PhD 
students in parks across the system to help park managers understand 
and find solutions to challenging transportation issues. American 
Airlines has helped us fund critical programs and global conservation 
initiatives dealing with migratory birds. Coca Cola North America 
recently pledged several millions of dollars to help parks across the 
system restore hiking trails for visitors.
    Having worked with the parks for such a long time and in such 
significant ways, I can assure you that both the Foundation and its 
partners understand and share the concern that corporate support for 
parks not become confused with and not lead to commercialization. We 
will work carefully within Director's Order #21 to ensure that 
corporate involvement adheres to this guideline. Over the last number 
of years, we have looked at this issue far too conventionally. Today's 
media environment creates multiple opportunities for donors and parks 
to work together in new and creative ways that do not lead to the 
commercialism of parks.
    This renewed interest in encouraging park philanthropy and 
partnerships creates many opportunities. First is the opportunity to 
connect and strengthen the fabric of support for parks on a national 
and local level. Our parks offer the best investments in the areas of 
youth-enrichment, education, health, and volunteerism, yet 
philanthropic potential on a grand scale and in line with contemporary 
thresholds has not been realized. Federal funding offers incentives for 
charitable partners to work collaboratively and creatively to develop 
fundraising campaigns that affect the entire park system. The National 
Park Foundation is prepared to take the necessary national leadership 
role to make this a reality and is currently working with an outside 
firm to examine the feasibility for creating a national philanthropic 
campaign to support national parks for the next century.
    Second is the opportunity to expand the dialogue around park 
partnerships. A richer conversation about parks will lead to 
incorporating best practices and innovation, especially at the state 
and local levels, which allow us to bring new ideas and models to 
national parks.
    Third is the opportunity to support the National Park Service as it 
works to enhance important youth and diversity programs system-wide. 
The approaching Centennial encourages us to build relationships that 
crosscut the full spectrum of American society. By working together to 
address under-reached audiences in ways that create meaningful park 
experiences, we ensure that all Americans feel connected to our shared 
heritage and accept their responsibility as future stewards of the 
national parks.
    We are glad to see the focus on children and diversity in the 
proposed legislation. While the charitable involvement of the American 
people has helped preserve and protect our parks, a lot of charitable 
activity today helps connect children to our parks--something the 
federal government can't do alone. The National Park Foundation 
continues to expand and support our own programs surrounding this 
initiative. We have seen support for the Junior Ranger and WebRangers 
programs at about $2.5 million over the last two years and continue to 
expand and increase our Electronic Field Trips, connecting 37 million 
children in a simultaneous visit to our parks during the last national 
park week. We will continue to work to improve the relationship of 
children to their national parks, and plan to work with private 
charitable organizations promoting these programs. Additionally, the 
African American Experience Fund is working to connect people with 
national parks that present African American history and culture.
    We at the National Park Foundation look forward to this century of 
giving. We will be convening the first National Leadership Summit on 
Philanthropy and Parks at the University of Texas in Austin on October 
14-16 to bring together leaders from across our nation to shape 
strategies, which will ensure that our national parks remain the 
world's premier centers of learning, science, recreation, preservation, 
and partnership.
    The state of our parks at the Centennial Celebration in 2016 will 
say a lot about our priorities as a nation. I applaud efforts to 
increase base funding for the National Park Service so it can carry out 
its mission more fully. Opportunities for philanthropy must be central 
to any Centennial legislation and we are confident this can be 
accomplished in a manner that allows our partners at the local level to 
be successful and for programs at the national level to extend the 
benefits of philanthropy to all parks. Philanthropy is critical to not 
only leveraging the federal investment, but to creating new 
opportunities for more of the public to relate to their parks and to 
generate the creativity and innovation the National Park Service will 
need in the coming century.
    Thank you, Mr. Chairman, for your ongoing support of national parks 
and for allowing me the opportunity to speak about the important role 
philanthropy plays in supporting the noble mission of the National Park 
Service and in connecting all Americans to these very special places.
                                 ______
                                 
    Mr. Grijalva. Thank you very much, sir.
    Mr. Cipolla. Thank you.
    Mr. Grijalva. Let me turn now to Mr. Gary Kiedaisch, 
president and CEO of the Coleman Company. Sir, your comments, 
testimony. Welcome.

        STATEMENT OF GARY KIEDAISCH, PRESIDENT AND CEO, 
                   THE COLEMAN COMPANY, INC.

    Mr. Kiedaisch. Thank you, Mr. Chairman and Members of the 
Committee. Thank you for the opportunity to appear before you 
today and add my voice in support of the goals and key elements 
of both bills before you today, bills that would establish 
historic, bold, and visionary funding for the National Park 
Service in the Centennial Celebration.
    I am here today as an advocate for using the centennial as 
a catalyst to build new partnerships between corporate America 
and our National Parks, partnerships that will help restore and 
preserve our national treasures; a partnership that will help 
make our parks attractive and relevant to today's American 
recreating public, including providing additional recreational 
venues, such as better trails, better hiking trails, and 
perhaps mountain biking trails, as was discussed earlier today 
by our representative from Kansas; better destination camp 
sites and better camp sites and better boat launches; a 
partnership that will carry the message to the American public 
that our National Parks are both treasures, learning places, 
and a place to recreate for a day, a weekend, or a week.
    I am fortunate that I was introduced to the great outdoors 
by my father, a sportsman and a sporting goods retail store 
owner. Unfortunately, we have unintentionally created an indoor 
society. We have worked hard to provide our children with what 
we did not have: autos, home entertainment, and the like. Too 
many of us failed, however, to share with them what we did have 
as kids. In doing so, we failed to introduce them to the great 
outdoors.
    Today, the average 18-year-old spends upwards of eight 
hours a day plugged into a screen of some type. Childhood 
diabetes and obesity is on the rise in America in epidemic 
proportions, inactivity being a direct contributor to that 
situation.
    Visits to our National Parks are declining, and we are at 
risk of accepting or creating public apathy for these treasured 
resources. We need, together, to get Americans outdoors, 
active, and recreating. I have spoken to large and diverse 
audiences across America and have had the opportunity to change 
lives by telling them, ``If you have never awoken on a crisp, 
fall morning inside the warmth of a sleeping bag under the 
protection of a tent next to a babbling brook, you have missed 
one of life's greatest experiences, and if you have never 
shared this experience with a child, you have missed one of 
life's greatest opportunities and responsibilities.''
    The Secretary of the Interior has presented to the 
president and Congress a bold, visionary, and aggressive call 
to action that will, indeed, get Americans outdoors and 
revitalize our National Parks, but we must be aware that the 
old adage, ``If you build it, they will come,'' no longer 
applies in today's hyper marketplace. The word ``relevant'' 
really plays here importantly.
    Our National Parks need to have venue offerings that 
attract visitors and captures them for periods of time. This 
last February, I visited Shenandoah National Park and learned 
that their visits were down from two million to 1.1 million 
visits, and I asked if they had mountain bike trails, and the 
answer was no. You heard earlier testimony today to the 
relevance of that and the importance of perhaps having mountain 
bike trails, which are relevant to today's market.
    We can, indeed, compete for the hearts and minds of young 
Americans who are now effectively captured by the home-
entertainment electronics industries.
    Enter a partnership with corporate America. The National 
Park Service and the U.S. taxpayer do not need to go it alone. 
Corporate America stands to benefit from a better-run, more 
relevant park venue. Corporate America stands to benefit from a 
healthier, more active recreating public. Our customers are the 
same. The very same people who buy Coleman tents and lanterns 
and sleeping bags are the people who visit our parks. I know 
these people, and my company wants to work seamlessly with the 
National Park Service to give them what they seek when they 
visit a park: a great memory.
    In fact, many people ask me, why is the Coleman brand such 
a beloved brand, much like the National Park brand is a beloved 
brand? It is because we give life experiences, and we make 
memories.
    This is a good opportunity for corporate America to 
heighten their corporate citizenship by wearing a white hat and 
partnering with the National Park Service to get Americans 
active and outdoors.
    I can give you many, many examples, and I hope we have time 
in the questions and answers, of how we have done this without 
commercializing the parks and how I experienced this real live 
time while I served on the United States Olympic Committee. 
There are examples of how the concessions in National Parks and 
ski areas in our national forests are both examples of programs 
which attract private capital to provide appropriate public 
recreation services and opportunities.
    Together, we need to market the benefits and communicate 
the availability. We need to get people active, thus reducing 
health care costs, which will attract insurance companies whose 
actuaries will clearly recognize the benefit of partnering with 
the National Parks and its initiatives to get people in the 
outdoors.
    In closing, I applaud the increase in investment in our 
National Parks under both bills. They are both bold and 
visionary and needed. House Bill 3094 proposes an assured 
addition of $100 million, regardless of achieved matches. Thank 
you. It is a good bill.
    However, House Bill 2959 would provide up to that amount in 
Federal funds, if matching funds were attracted, with the 
possibility to increase annual funding to $200 million through 
2016. I strongly support this and advocate that you go for the 
higher target.
    There are many examples of public-private partnerships that 
respect each party's goals, objectives, and values. Under the 
leadership of the Department of the Interior, the National Park 
Service, and the many interested parties before you, I, today, 
remain confident that we can leverage the Federal dollars, 
create a lasting and sustainable partnership to increase park 
visitation, and future generations of advocates to maintain 
these treasured public assets. Thank you.
    [The prepared statement of Mr. Kiedaisch follows:]

          Statement of Gary A. Kiedaisch, President and CEO, 
                       Tthe Coleman Company, Inc.

    Mr. Chairman, members of the committee, thank you for the 
opportunity to appear before you today to add my voice in support of 
the goals and key elements of both H.R. 2959 and H.R. 3094, bills that 
would establish funding for the National Parks Service Centennial 
Celebration. I am here as an advocate for using the Centennial as a 
catalyst for new partnerships between corporate America and America's 
parks, partnerships which can be key forces in park revitalization and 
re-engaging the public with the outdoors.
    I'm a fortunate American because, as President and CEO of The 
Coleman Company, my passion for the outdoors coincides with my 
vocation. I frequently suggest to audiences, ``If you're never awakened 
on a crisp fall morning inside the warmth of a sleeping bag under the 
protection of a tent next to a babbling brook, you have missed one of 
life's greatest experiences. And if you have never shared this 
experience with a child, you have missed one of life's greatest 
opportunities.'' But this experience I describe in reality depends upon 
foot soldiers with the right skill sets, working cooperatively. We at 
The Coleman Company, in concert with an army of partners in the outdoor 
industry, in the retail trade and with organizations like the Boy 
Scouts and public park agencies, have been cultivating that skill set 
for more than a century.
    Beginning in 1900, the role of The Coleman Company has been to lead 
the charge in getting people outdoors. When you expose people to the 
great outdoors, our founder said, you're introducing them to the 
wonder, the healing powers and the joy of being close to nature. So 
many others have echoed that sentiment, most notably President Theodore 
Roosevelt. I am proud that The Coleman Company has championed this 
message throughout its 100+ years. One of my predecessors, Sheldon 
Coleman, came before this panel in the 1960's--as well as other bodies, 
including the platform committees of both political parties--to urge 
creation of the Land and Water Conservation Fund. He also championed 
the expansion of the Dingell-Johnson Fund and creation of the National 
Trails System and the National Scenic Byways Program, and served in a 
leading capacity on the President's Commission on Americans Outdoors 
side by side with the late and Honorable Mo Udall. Yet today the 
messages of Teddy Roosevelt, and Sheldon Coleman, and Mo Udall, and of 
many of you, are falling on deaf ears--or at least distracted ears.
    Today, the average youth spends six and one-half hours every day 
tied to television and computer screens. Today, nearly 20,000 
additional American children are being diagnosed with diabetes 
annually. Today, we face an obesity epidemic for all age groups, 
according to the Centers for Disease Control and Prevention, and 
especially among urban and suburban youth. Today we have millions of 
youth diagnosed with Attention Deficit Disorder and medicated to 
control disruptions in classrooms. Today, we see unrelieved stress 
leading to drug abuse, roadway rage and abuse of loved ones. Today, we 
are grappling with the long-term healthcare costs of growing numbers of 
inactive senior Americans.
    And today, we know that regular doses of healthy active fun in the 
outdoors are a remedy--a cost effective and medically effective 
remedy--to these challenges that now jeopardize the quality of life for 
millions, render many U.S. businesses uncompetitive and pose daunting 
economic hardships for government agencies at the local, state and 
national levels.
A GREAT OPPORTUNITY FOR PARTNERSHIPS
    The National Park Service and other government entities should not 
be the only foot soldiers in this campaign to re-engage the public with 
the outdoors and harvest the physical, the mental and the spiritual 
benefits. That has been increasingly the pattern over fifty years, 
under Democratic and Republican leadership alike. And it has left us 
with an underfunded system of parks and other public places and 
declining visitations. It is time to be as bold as we were as a nation 
one hundred years ago, as bold as we were fifty years ago. It is time 
to invite the business community in as a partner to help provide the 
places and the programs that serve societal needs.
    The corporate world is a huge, untapped resource for both funding 
the outdoor places and the message about the benefits of these places. 
And it is at its best in getting messages out. In addition, business 
has the power to make getting outdoors into a national priority. That 
is a marketing challenge, the very skill set that business has in great 
supply.
    Engaging corporate America in this campaign will, without question, 
broaden public support. It will also help tap into a national structure 
for communicating the message from the local, to the regional, to the 
national parks level using the same tried and true business practices 
that have made this country's economy the strongest in the world.
    At The Coleman Company, our business is making the outdoors more 
accessible and more appealing to an ever more sedentary population. We 
provide the tools and the information for people to get to the fun of 
the outdoors faster and make the experience one that they'll want to 
repeat over and over again. The mandate of our company--get people 
outdoors, have fun and reap the ancillary physical and emotional 
benefits of the outdoor lifestyle. And we're not alone. Corporate 
America has gotten the outdoor message, has been preaching it in its 
marketing messages and is ready to answer your call.
    In partnership with the National Park Service, key corporations can 
help make our National Parks relevant to today's Americans. Businesses 
know the consumer pretty well. Knowing the customer is the difference 
between success and failure. And it is important to remember that 
consumer spending on recreation in America today is some $400 billion 
annually and growing.
    At Coleman, our insights into America's leisure wants are delivered 
through the marketplace, and the success of our efforts is reflected in 
the fact that most families visiting national parks arrive with one or 
more of our products: a cooler or a lantern, a stove or a sleeping bag, 
a tent or one of our fishing rods, a Coleman canoe or an inflatable 
water tube or kayak.
    But our parks are largely disconnected from feedback from the 
marketplace.
    Case in point--visits to Shenandoah National Park have been 
declining significantly in recent years. One of several reasons--the 
park hasn't added the infrastructure that people seek. Mountain biking, 
one of the fastest growing categories in family outdoor activity, for 
example, has been ignored despite available administrative roads and 
underused trails. Corporate American knows how to fix a disconnect like 
that by linking park offerings with consumer demand.
    Forging this coalition is an opportunity for government to bring 
together a broad cross-section of American business resources, 
including representatives from a wide array of different sectors, each 
with a vested interest and each with unique contributions.
    Imagine recruiting executives from the country's most successful 
entertainment companies, healthcare companies, travel companies, 
outdoor companies and auto companies, as well as countless others, and 
setting them to the task of repositioning the National Parks as 
destinations, not just places to visit. I ran a four season Ski and 
Golf resort and know, all too well, the painful difference. Marketing 
is what drives business and marketing, along with park revitalization, 
will be the driving force behind this campaign's success.
    I recently learned that the average length of stay at many of our 
national parks is equal to the time it takes to drive across them. 
Think of if, visiting the natural wonders of Death Valley National 
Park, an area roughly the size of the State of Connecticut, for only 
three hours. What a waste. Want the solution? Ask business.
    One of the critical missions of this initiative is to remind the 
American public of their responsibility to be stewards of the land by 
using and not abusing it. Business applauds this and, through effective 
marketing, will make it possible for the parks to include stewardship 
education. Coupled with the right park offerings, visits and length of 
stay will increase. By identifying and funding new activities that will 
attract today's consumer to the parks, participation rises and everyone 
wins.
    I am not simply touting real effective partnerships as an academic 
exercise. The Coleman Company relies heavily on partners--partners like 
the Continental Divide Trail Alliance and the Appalachian Mountain 
Club, Wal*Mart and specialty sporting goods retailers. We combine 
dollars and manpower and other assets to serve seamlessly those people 
who seek positive memories of time in the Great Outdoors. And this is 
the template that the National Park Service should pursue as it 
approaches its Centennial and enters its second century.
    Partnerships will help us focus on and overcome the barriers that 
exist to connecting Americans with their lands--barriers like onerous 
insurance requirements placed on non-profits and profits seeking to 
help youth discover the fun of the outdoors at parks. In my discussions 
on Capitol Hill and with Administration executives over the last year, 
I have often referenced the model of the U.S. Olympic Committee (USOC) 
as a way to meld public and private forces into a force for the public 
good--in that case, equipping American youth to achieve greatness and 
stand on podiums to receive medals in international competition. And 
the USOC succeeds without commercializing sports, just as we need to 
succeed without commercializing parks.
    This Congress and this Administration are engaged in a dialogue 
that demands a win/win. We need to transcend divisions, including 
political divisions. And we need to open the doors to innovation. It is 
time to look closely at innovative efforts underway within many state 
park systems, including partnerships that replace investments of public 
funds with private capital. It is for us to adopt lessons learned from 
partnerships at Wolf Trap Center for the Performing Arts--a National 
Park Service unit--and the Smithsonian. We need to learn and adopt the 
best practices from partnerships like the Claude Moore Colonial Farm--a 
unit of the National Park Service that serves the public without a NPS 
staff.
RECOMMENDATIONS ON LEGISLATION
    I opened my testimony by applauding both pieces of legislation 
subject to today's hearing. It is easy to find elements of both bills 
to support. Yet I urge the committee to look for a synthesis of these 
bills complete with some new elements as its work product.
    First, we applaud the increase in investments in our national parks 
under both bills. H.R. 3094 proposes an assured addition of $100 
million, regardless of achieved matches. H.R. 2959 would provide up to 
that amount in federal funds--if matching funds were attracted. That 
could boost annual funding to $200 million or more annually through 
2016.
    We strongly support the higher target and the requirement that the 
agency solicit support which will leverage available federal funding at 
least 1:1. This seems especially appropriate because we are talking 
about a Centennial Fund not to cover normal operations and facilities, 
but to fund excellence in the parks. This is truly an exciting 
opportunity for individuals, non-profits and businesses to be invited 
to the table to help define the programs that deliver this revitalized 
outdoor experience and share the tab.
    Practically, this also creates broad ownership in the Centennial 
effort. For many of us who admire and support the Land and Water 
Conservation Fund, the idea of a more engaged base of support is very, 
very attractive. This provision could be essential in assuring that the 
Centennial Fund will be fully funded and make it to 2016--perhaps 
continuing long thereafter.
    Let me also express strong support for a change to the legislative 
proposals before you to capitalize on recent lessons. Both bills 
envision a Centennial Fund. H.R. 2954 expressly calls for contributions 
to this fund to create the matches needed for approved projects. Far 
more preferable would be a fund from which matching grants could also 
be made. A model for this would be the Southern Nevada Public Lands 
Management Act, which, since 2000, has received nearly $3 billion from 
the auction of surplus federal lands in Southern Nevada. It is used to 
award grants for annual projects in land acquisition, capital projects 
and environmental restoration. Typically, the projects it funds are 
leveraged, but these matching funds do not need to be deposited into a 
federal account and the projects can be achieved faster and often more 
efficiently than through traditional federal procurement efforts. We 
urge adoption of a similar model for the Centennial Fund, with project 
selection vested in the Secretary of the Interior and with oversight 
from a board created in the Centennial legislation.
    I am also told that the goals we share must be resolved in 
compliance with federal budgeting and appropriations guidelines. I live 
well outside the Beltway and don't profess to understand PAYGO and 
offsets. I appreciate that H.R. 3094 addresses this issue and commend 
the commitment reflected to not work for a symbolic success--one that 
will not deliver the results to the ground in national park units 
across the nation. The support of America's business leaders for the 
Centennial Initiative will be strong if the Fund is truly a mandatory 
program through 2016, with a definite commitment of federal funds.
    Finally, I need to comment on the language in H.R. 3094 regarding 
project categories and categorical percentages. While some guidance is 
needed, I strongly urge the Congress to avoid highly prescriptive 
formulas that may force the National Park Service to ignore the public 
and partner input into the Centennial initiative. Far better would be 
regular Congressional oversight and consultation with the agency--
something H.R. 3094 already contemplates. My concern with the formulas 
in H.R. 3094 is exacerbated because the legislation fails to include a 
category of vital interest to The Coleman Company and all recreation 
interests: needed investments in recreation infrastructure.
    A visit to a national park should not be defined by time spent 
looking through the windows of your personal vehicle or a park tram, 
and it should not be focused on time spent in a visitor center. 
America's parks need more and better trails, better campsites--
developed and backcountry--and better fishing piers and boat launches. 
The Coleman Company's interest and support of the Centennial 
initiative, and that of our partners, is focused on the recreation 
infrastructure of the parks.
    Additionally, I strongly support use of the Centennial Fund to go 
beyond the physical aspects of parks. Attention to and investment in is 
needed to such non-physical needs of the parks as marketing, 
interpretation, events and outdoors activity training programs.
SUMMARY
    As a lifelong outdoor advocate working in a company whose name is 
synonymous with the outdoor lifestyle, I can think of nothing that 
would affect positive change faster in the use of these national 
treasures than to increase the number and diversity of interests 
engaged in their revitalization.
    The goals for this effort are clear. The benefits to the public are 
also clear. All that remains, as we say in business, is to get the 
right people on the bus, put them in the right seats, and decide where 
the bus should go.
    Today I ask you to include corporate America on the National Park 
Service Centennial Celebration bus as a partner in this important 
initiative. Its contributions will be many, its financial support will 
be significant and the result will be a healthier, happier and more 
outdoors oriented public. Together, we will make the National Park 
Service Centennial Celebration into a lifestyle changing reality for 
everyone.
                                 ______
                                 
    Mr. Grijalva. Thank you very much, sir, and let me now turn 
to Tom Kiernan, president, National Parks Conservation 
Association. Welcome.

             STATEMENT OF TOM KIERNAN, PRESIDENT, 
            NATIONAL PARKS CONSERVATION ASSOCIATION

    Mr. Kiernan. Thank you very much. Mr. Chairman and 
Congressman Bishop, I am Tom Kiernan, president of the National 
Parks Conservation Association, and pleased to be here to 
represent our 330,000 members nationwide who care deeply, as 
you very much do as well, about our beloved National Parks. I 
do have a written statement, which I would submit for the 
record and would attempt to summarize right now.
    First, let me congratulate you, Mr. Chairman, and Chairman 
Rahall for your leadership in introducing H.R. 3094 and for 
holding this very important hearing as you approach the recess. 
Obviously, these are extraordinarily busy times for you.
    I also would like to commend Mr. Bishop and Congressman 
Young for introducing the equally important legislation 
suggested by the Secretary, H.R. 2959.
    Overall, NPCA strongly supports the effort contemplated by 
these two bills, so long as this effort, first, is viewed as 
part of a larger, comprehensive solution to restore the 
National Parks by the 2016 centennial; second, if this effort 
effectively encourages appropriate increases in philanthropy; 
and, third, for this effort to be integrated into, and support 
a vision for, the National Park System as a whole.
    For reasons that I want to explain in just a moment, NPCA 
prefers the approach taken in H.R. 3094, though with certain 
modifications consistent with the intent, we think, of both 
bills.
    First, I would like to explain why these bills need to be 
viewed as part of a broader solution for our National Parks. 
Chronic funding shortfalls continue to be the most pervasive 
threat to our National Parks. Based on our analysis over the 
last many years, the annual funding shortfall for our National 
Parks more than $800 million each year. As a result, many park 
managers have had to reduce their workforces, have had to 
reduce the hours that a visitors' center is open, have had to 
close some visitors' centers, and have had to reduce the number 
of programs and the number of ranger-led tours in the parks.
    Given the significant $800 million annual funding 
shortfall, I want to emphasize that the $100 million annual 
Centennial Fund idea must be thought of as a part, a very 
important part, but only a part of a concerted, comprehensive, 
and multi-year effort to restore and adequately fund the 
nation's parks by their centennial.
    Toward this end, we are certainly pleased with the Fiscal 
Year 2008 Interior appropriations bill that has passed the 
House that makes unprecedented progress in reducing that annual 
funding shortfall from $800 million down to roughly $600 
million. The House bill also includes a $50 million funding 
initiative for the Centennial Challenge as a way of bridging 
over to this authorizing legislation hopefully being enacted.
    In addition to thanking this Committee for your work on 
park funding, I want to recognize again the co-chairs of the 
National Parks Caucus, Congressmen Baird and Souder, for their 
leadership. These proposed increases have also been catalyzed 
by the thinking and leadership of the Secretary of the 
Interior, Dirk Kempthorne, and Director Mary Bomar, and I want 
to recognize their work on that issue.
    I would like to now switch from talking about Federal 
funding to philanthropy. From its inception, the National Park 
System has benefitted greatly from the generosity of the 
American people, and we see increasing philanthropy as an 
integral and positive part of this initiative. But to 
effectively encourage appropriate increases in philanthropy, we 
would like to make three specific recommendations in regard to 
the bills that you are considering.
    First, the administration's bill, 2959, proposes to create 
a required match program whereby Federal funds would match, 
dollar-for-dollar, cash contributions from nonFederal sources. 
We believe counting only cash contributed to the Federal 
Treasury is too limiting.
    By Park Service estimates, the largest share of private 
contributions to the park system is in the form of in-kind 
materials and services. We believe that while such cash 
contributions are important, these in-kind contributions of 
materials and services, including the related project-
management capabilities of the larger friends groups, should be 
included in the match process as well.
    Second, some accommodation needs to be made in the match 
concept to ensure that parks with small or nonexistent friends 
groups are also able to participate in the Centennial Challenge 
program. Since H.R. 3094 does not include a formal, dollar-for-
dollar, match requirement but makes the philanthropic component 
optional, it obviates these two problems that I just 
summarized, and thus we prefer the approach taken in H.R. 3094.
    However, we do recommend that 3094 be adjusted to give 
additional priority to those projects and programs that have a 
strong partnership component. Such an approach would encourage 
the many friends groups, cooperating associations, individual 
partners for being a part of this whole program.
    Last, we would encourage that Section 4 of H.R. 3094 be 
expanded to include a component explicitly on cultural 
resources.
    Again, Mr. Chairman, thank you very much for the 
opportunity to testify, and we look forward to working with you 
and here, obviously, to answer any questions.
    [The prepared statement of Mr. Kiernan follows:]

              Statement of Thomas C. Kiernan, President, 
                National Parks Conservation Association

    Mr. Chairman, and members of the subcommittee, I am Tom Kiernan, 
president of the National Parks Conservation Association (NPCA). Since 
1919, NPCA has been the leading independent voice of the American 
people for protecting and enhancing our National Park System for 
present and future generations. I am pleased to be here today on behalf 
of our more than 330,000 members nationwide who visit and care deeply 
about America's national parks.
    Mr. Chairman, I cannot overemphasize how important introduction of 
H.R. 3094 by you and Chairman Rahall is in terms of creating the 
critical legislative momentum needed to enact legislation in time to 
authorize a truly viable centennial program. We applaud and thank you 
for your leadership in developing a thoughtful legislative proposal 
that includes mandatory new spending on behalf of our national parks, 
sets priorities for how those funds should be allocated and encourages 
contributions from philanthropic sources as we ready the parks for 
their second century.
    I particularly appreciate that the subcommittee has chosen to hold 
this important hearing on the proposed national parks centennial 
legislation in this time frame with the press of so much other 
important business before the Congress. Taking this step in the 
legislative process now clearly demonstrates that you share our goal of 
making national parks a national priority as the centennial of the 
founding of the National Park Service and the unique and magnificent 
park system the Park Service was created to manage and conserve 
approaches in 2016. Time is certainly of the essence in launching an 
ambitious, viable program to help repair and enhance the park system in 
order for it to begin its second century in the best condition 
possible, prepared for the challenges of the future. It is a task that 
requires the Congress, the Administration, philanthropic groups, 
conservationists, communities, and individual park advocates working 
together for a common purpose--to harness American pride, patriotism 
and vision to protect this precious national legacy. Holding this 
hearing before the impending recess sends an important message to that 
effect.
    NPCA strongly supports the effort to create a special, dedicated 
fund over and above amounts provided in the regular appropriations 
process to address priority programmatic and project initiatives to 
enhance the park system during the years leading up to the centennial. 
We see this concept not only as an important source of money to pay for 
important and worthy programs and projects for the parks, but as a way 
to engage the American people in keeping their own heritage alive.
    Let me emphasize at the outset, though, that this proposal alone 
will not solve the problems and address all the long and short term 
needs of the parks which have resulted from decades of funding 
shortfalls during many administrations and Congresses. It must be 
thought of as one part of a concerted, comprehensive, multi-faceted, 
multi-year effort to restore and adequately fund the nation's parks. 
Substantial increases in park funding, particularly for operations in 
addition to this bill, sustained over many years will be needed to make 
the parks whole.
    Chronic funding shortfalls continue to be the most pervasive threat 
to the national parks. Our analysis shows that the shortage of funding 
for national parks has grown to more than $800 million every year. The 
backlog of maintenance and preservation needs exceeds $7.8 billion 
dollars, and the Park Service has a backlog of $1.9 billion in 
acquiring inholdings located within park boundaries. Many park managers 
have been forced to reduce their work forces, lower the number of 
public education programs they are able to offer, shorten visitor 
center hours or shutter visitor centers altogether, and deny requests 
from school groups for ranger-led tours. In parks across the country, 
interpretive displays and signage are outdated, brochures are in short 
supply or non-existent and interpretive rangers are missing. In many 
parks, nationally significant lands are subject to development threats. 
Under these constraints, park managers struggle to engage and inspire 
visitors, and protect natural and cultural resources.
    A commitment for sustained funding increases is absolutely 
necessary to make progress toward eliminating the annual $800 million 
operating budget shortfall. We believe without a doubt that, armed with 
the facts, the American people will agree that the protection and 
enhancement of the superlative natural, cultural and historic symbols 
of our shared American experience should indeed be a national priority, 
particularly in these difficult and unsettling times when the meaning 
of our heritage is so profound. These places remind us of who we are 
and how we got here, as a people and as individuals with personal and 
family connections to special park places.
    We are very gratified, and frankly relieved that the administration 
requested and the full House of Representatives and the Senate 
Appropriations Committee have approved FY 2008 Interior appropriations 
bills containing a significant first installment in the increases for 
park operations that are so essential. It would mean, roughly, that the 
$800 million operating shortfall would drop to $600 million for the 
2008 fiscal year. It is a good start and one that needs to be enacted. 
This increase needs to be sustained as the appropriations process moves 
forward, and we respectfully solicit your help in achieving that goal. 
I know that you, Mr. Chairman, and many members of this subcommittee, 
have consistently supported increased funding for park operations in 
the appropriations process, and I want to thank you for that.
    I would be remiss if I did not also thank Representatives Souder 
and Baird for the strong leadership they have consistently shown over 
the past several years. This includes their introduction of the 
National Park Centennial Act, and the extensive series of hearings Mr. 
Souder conducted across the country on the future of the National Park 
System. As co-chairs of the ever-growing House National Parks Caucus, 
they have both demonstrated a significant and sustained commitment to 
our national parks and have helped create the opportunity that is now 
before us.
    Nearly one year ago at Yellowstone National Park, Interior 
Secretary Kempthorne announced an initiative to re-focus attention on 
the national parks and their needs in anticipation of the 2016 
centennial. One of the key elements of that initiative is the so-called 
``centennial challenge,'' and how that concept is to be manifest in 
legislation is, of course, the subject of today's hearing. But before I 
discuss the legislation, let me say a word about Secretary Kempthorne.
    Since his arrival, we have experienced a sea change in 
receptiveness at the Interior Department to our entreaties about the 
needs of the parks and the federal responsibility to address them. 
Clearly, he shares our vision about the value of the National Park 
System to the American experience, both now and in the future, and I 
attribute the lion's share of this administration's newfound interest 
in the national parks to his presence and his commitment to help the 
parks on his watch. I thank him for his leadership in support of the 
national parks.
    Having an experienced director who has worked her way up through 
the ranks of the Park Service has also been good for the parks. Let me 
say for the record that it is a pleasure to work with Director Mary 
Bomar.
    While the central element of the effort to address the needs of the 
National Park System during the years leading up to the 2016 centennial 
must be focused on encouraging the federal government to meet its 
fundamental stewardship responsibility in protecting and adequately 
funding the national parks, much of the attention surrounding the 
centennial initiative has been devoted to the idea of creating a 
program to carry out selected signature or centennial projects and 
programs. We heartily support this concept so long as the specific 
projects and programs are integrated into a vision for the National 
Park System as a whole and will take the parks to a higher standard of 
excellence in preparation for their next century. As H.R. 3094 
specifies, the program should consist of new money, and should not 
result in reduced funding for other important park needs.
    Forty years ago, when the Eisenhower administration launched 
``Mission 66'', its commitment of $1 billion in preparation for the 
50th anniversary of the National Park System, it did so in the context 
of the development of the interstate highway system, with a vision very 
much influenced by that endeavor. The $1 billion initiative that 
President Eisenhower launched and Presidents Kennedy and Johnson 
continued is worth some $7 billion in today's dollars. Although that 
investment was devoted to a smaller national park system serving fewer 
visitors, it was tremendously important. In hindsight, however, it also 
resulted in what is now acknowledged to have been too heavy an 
investment in infrastructure projects, some of which needed to be 
reworked in later years. Accordingly, the centennial challenge must 
incorporate a strong set of criteria for project selection that will 
build on the most beneficial aspects of the Mission 66 experience, meet 
genuine park system needs, and avoid a repeat of past mistakes. It 
should articulate a vision and define priorities based upon the 
mandates of the National Park Service Organic Act and its mission. It 
must contribute to a compelling case that the Park Service will be 
better equipped to restore natural and cultural treasures, to protect 
park resources, to serve park visitors, to enhance park science, to 
engage the full diversity of our nation in the parks, and better 
connect them to schools and universities. It is essential that the Park 
Service focus as well on how it needs to evolve in order to fulfill its 
mission in the next century and to integrate the parks into the lives 
of more Americans and keep them relevant to the communities in which we 
live. If that occurs, Congress can be fully justified in making a ten-
year commitment to enhanced park funding.
    From its inception, the National Park System has benefited greatly 
from the generosity of the American people, who have contributed many 
millions of dollars in support of their parks in order to assure a 
measure of excellence in the condition of park resources and the 
quality of park programs for visitors. According to the Park Service, 
in 2005, the combined value of contributed services, aid and funding to 
national parks through cooperating associations, volunteers and friends 
groups, as well as the National Parks Foundation was approximately $241 
million. One of the truly exciting things about the centennial program 
and project concept is its potential to increase the level of 
philanthropic support for the park system. We see that as an integral 
and positive part of the initiative, not just incidental to it.
    For its part, the Administration proposes to leverage additional 
philanthropic activity by creating a required match program whereby 
federal funds would be made available equal to amounts contributed by 
non-federal sources, up to $100 million per year. That is to say, if 
only $20 million dollars is raised privately under the program in a 
year, the federal government would contribute only $20 million. The 
``challenge'', therefore, would be to raise at least $100 million in 
philanthropy every year to ensure that the full $100 million in federal 
dollars could be released for centennial projects and programs.
    As is so often the case, the devil is in the details.
    The administration's bill, introduced in the House by 
Representative Bishop and Representative Young as H.R. 2959, requires 
that non-federal contributions be made in cash and paid directly into 
the Treasury in order to qualify for the federal match.
    What we have learned from the various parks friends groups and 
other charitable organizations with whom we have developed close 
relationships over many years is that counting only cash contributions 
which are paid into the treasury is too limiting. In fact, by far the 
largest share of contributions to the park system is in the form of in 
kind materials and services. For example, in 2005, friends groups 
donated $61 million - $8.5 million in cash and $52.5 in non-cash 
contributions, according to Park Service estimates. It is important to 
note that non-cash contributions often take the form of turnkey 
facilities such as museums and visitor centers, materials such as the 
steel used for the restoration at Yosemite Falls, and other projects 
providing direct monetary value to benefit a specific park. Because 
such friends groups can often achieve market efficiencies through 
project management the Park Service cannot, such in kind contributions 
often result in substantial cost savings. This should be maintained.
    Under the match proposal, parks with particularly active or 
successful friends groups likely would be disproportionately advantaged 
since projects or programs they support would have a greater chance of 
being funded. Today, there are 391 units in the National Park System. 
There are some 175 friends groups. Some serve more than one park, but 
many if not most units have no such groups. Some accommodation needs to 
be made in the match concept to assure that parks without active, 
successful friends groups are not disadvantaged or forgotten.
    Finally, requiring the matching funds to be channeled through the 
treasury could actually be detrimental to the goal of increasing 
charitable contributions. Not only does it foreclose giving credit for 
in-kind or other non-cash contributions, but high-end donors in 
particular understand that financial gifts made directly to the 
government do not earn interest but that gifts though intermediary non-
profit groups do. Many of those donors also fear that their 
contributions will not be used as they intend if they write a check to 
the federal treasury.
    The Grijalva/Rahall centennial bill (H.R.3094) would also create a 
centennial fund to be used for selected projects and programs, but it 
makes the philanthropic component optional rather than mandatory. By 
doing so, it obviates several challenges with which we have been 
struggling since the Secretary took the initiative to propose the 
centennial challenge concept. For example, by using existing 
partnership authority, H.R. 3094 avoids the need to create new 
bureaucratic mechanisms that would be needed to make a philanthropic 
match requirement work. It ensures, for instance, that parks without 
active philanthropic partners will receive needed assistance in 
preparation for the centennial, while enabling friends groups and their 
national park partners to be as creative as possible in developing 
additional project or program proposals using the potential federal 
monetary commitment to leverage additional philanthropic activity. 
Without the requirement of a match, the bill avoids the need to develop 
a more encompassing and realistic match definition or to debate the 
inclusion of appropriate in kind contributions. By using existing 
partnership authority, it eliminates the need to address whether 
philanthropists would have to write checks directly to the treasury.
    This being said, it will be absolutely critical for the Park 
Service and its partners to work together to maximize the potential for 
using this program to attract additional philanthropic support.
    Section 5 of H.R. 3094 on partnerships clearly acknowledges that 
the Secretary may accept donations for any centennial project. Indeed, 
it provides sufficient flexibility to enable the Park Service to submit 
proposals to Congress, the vast majority of which would include a match 
component. It merely prohibits the administration from withholding 
funds from parks based on the existence or lack of a non-federal match. 
Experience shows that park philanthropies generally follow a philosophy 
of adding value. If the private sector sees itself as supplanting 
rather than supplementing the federal responsibility to fund the 
national parks, philanthropy retreats since no added benefit is 
evident. Potential donors are in general unwilling to pay for things 
they perceive their tax dollars should already be covering. By the same 
token, if potential donors recognize an increase in federal government 
priority for the national parks and an improved federal commitment to 
adequately funding core park operations, their motivation to add value, 
including specific park improvements and programs will be invigorated. 
When coupled with sustained increases in funding for park operations, 
creation of the national park centennial fund clearly demonstrates the 
kind of increased federal attention that can lead to expanded 
charitable giving for the park system.
    One useful clarification relates to the use of unobligated funds. 
We suggest making it explicit that the availability of unobligated 
funds for projects in the Fiscal Years 2009 through 2018 as set out in 
Section 4(b) is not intended to be limited by fiscal year. That is to 
say, amounts in the fund that remain unspent should be carried over 
from year to year, not returned to the treasury.
    H.R. 3094 also explicitly addresses the concern we have expressed 
that amounts spent from the centennial fund on selected projects must 
be new money, not money taken out of other park programs or budgets or 
offset against existing appropriations levels. Section 7 on maintenance 
of effort makes it explicit that money from the fund shall supplement 
and not replace other annual park service expenditures. The section 
goes on to direct the Park Service to maintain adequate, permanent-
staffing levels, not replacing permanent staff with non-permanent 
employees hired to carry out projects. That is also very important.
    We are also pleased that Section 6 of the bill specifically directs 
that actions of Park Service employees with regard to any project shall 
be governed by Director's Order #21. Having that directive in statutory 
language is an additional safeguard against any potential for over 
commercialization of the park system that might be created by 
participation in centennial projects by private entities.
    Ever since the idea of creating a dedicated fund for signature or 
centennial projects and programs was first raised, we have argued that 
the development of an objective selection process that is guided by 
clear standards for judging and prioritizing projects is essential if 
the program is to be politically credible and viable. We believe great 
care must be taken to ensure that proposals are evaluated objectively 
and for the value they bring not only to individual parks, but also to 
the future of the entire park system. By specifically setting out the 
categories of issues and goals the centennial projects must address and 
outlining a process for their selection, H.R. 3094 not only provides 
the program with clarity and stability for its duration, but also 
increases its political credibility with the Congress. It will also 
require Congressional discipline in reviewing Park Service proposals to 
ensure that system needs are being met.
    The six categories for centennial projects and programs set out in 
the bill--Education, Diversity, Supporting Park Professionals, 
Environmental Leadership, Natural Resource Protection, and Construction 
are generally in keeping with our own thinking and recommendations, and 
are basically consistent with categories outlined by the Interior 
Department in its Report to the President in May. Clearly, they lay a 
foundation for implementing centennial projects and programs that are 
truly meaningful and which will contribute to the goal of preparing the 
National Park System for its next century.
    There are a couple of points about specific categories I would like 
to mention.
    First, while the ``Natural Resource Protection Initiative'' 
[Section 4(b)(5)] is extremely important, cultural resource needs are 
not sufficiently addressed in the bill. Each of the 391 units in the 
National Park System contains significant cultural resources that the 
Park Service is charged with preserving for present and future 
generations. More than just bricks and mortar historic structures, 
cultural resources also include archeology, culturally significant 
landscapes, ethnographic resources, and museum collections. These 
valuable resources are not renewable; they cannot be researched or 
interpreted for future generations if they are lost forever through 
neglect. The job of putting the National Park System in its best 
possible condition in time for the centennial would be incomplete if 
the historic and other cultural sites under the Park Service's care are 
overlooked. Therefore, we strongly suggest that section 4 of the bill 
be expanded to include the protection of cultural resources as well.
    I also want to call attention to the category titled, ``Supporting 
Park Professionals'' [Section 4(b)(3)], which we consider to be very 
important. One of the most acute complications the Park Service has 
faced as funding for the parks has failed to keep up with need has been 
the ability of the agency to fully train its staff on critical emerging 
skills and issues. This is particularly problematic with the number of 
retirements the Park Service has been experiencing. It is our 
understanding the Park Service now has the smallest budget for training 
per employee of and of the federal resource management agencies. While 
many Park Service staff are well trained and experienced in many 
important areas, park managers also need to be trained to handle the 
complicated financial, political and managerial responsibilities needed 
to run an increasingly complex park system, and uphold Park Service 
management policies. I commend you for recognizing that need in your 
bill.
    Finally, let me say that while the bill's formulation of requiring 
spending in each category to be allocated in specific percentages seems 
reasonable in terms of preventing problems such as those encountered in 
Mission 66 with too much emphasis being placed on brick-and-mortar 
projects, somewhat more flexibility may be warranted. For example, 
there might be categories wherein a spending percentage ceiling is 
required and others that should have a spending floor in order to 
achieve the desired diverse mix of centennial projects and programs. 
Requiring adherence to a strict percentage formula for the allocation 
of funds each year for each category may mean worthy and timely 
initiatives are forced out of the running without adequate 
consideration because their relative cost does not fit into the 
percentage formula.
    Again, Mr. Chairman, let me commend you and all the members of the 
Subcommittee, for your interest in taking substantive action to ensure 
that our national parks are ready to meet the challenges of their 
second century. The lead up to the centennial presents an extraordinary 
opportunity to evaluate and prepare to meet these challenges and to 
reach the park system's full potential as one of our country's premier 
resources. Our sleeves are rolled up and we are ready and willing to 
work with you to perfect this important legislation and see it enacted 
into law as soon as possible. The national parks should be a national 
priority. By 2016, the entire National Park System should be a model 
for the world of American excellence and innovation, grounded in 
protecting the natural and cultural heritage we hold so dear.
    I am happy to respond to any questions you might have.
                                 ______
                                 
    Mr. Grijalva. Thank you very much.
    The final witness, Mr. Bill Wade, Chair of the Executive 
Council, Coalition of National Park Service Retirees. Welcome 
and thank you.

STATEMENT OF BILL WADE, CHAIR, EXECUTIVE COUNCIL, COALITION OF 
                 NATIONAL PARK SERVICE RETIREES

    Mr. Wade. Thank you, Mr. Chairman and Ranking Member 
Bishop. I will add my thanks to you for holding this hearing 
and for inviting us to make our views known.
    I am the Chair of the Executive Council of the Coalition of 
National Park Service Retirees, which now consists of 600 
individuals, all former employees of the National Park Service. 
Together, we bring to this hearing over 17,000 years of 
accumulated experience.
    We strongly support H.R. 3094, the National Park Centennial 
Fund Act. We believe this bill is much better than the Bush 
administration's proposed Centennial Initiative to increase NPS 
funding over the next 10 years that is incorporated in H.R. 
2529, and we applaud the efforts of Chairman Rahall and 
Congressman Grijalva for their vision and efforts.
    Because we think this is a much better bill, I will confine 
my comments largely to that, and in my written testimony, I 
have provided some specific suggestions and recommendations 
that we think would enhance the bill. But for purposes of my 
comments here today, I would like to focus on a couple of 
specific issues.
    First of all, we support and applaud the bill's intent to 
create a dedicated funding source for the Centennial Fund for 
each fiscal year, from 2008 through 2017, a notable difference 
from the Bush administration's proposal in H.R. 2529.
    Additionally, we appreciate the identification of the 
National Park Centennial Initiatives specified in the program 
allocation section of the bill and especially the emphasis 
prescribed in subsection [d] for the ``Education in Parks 
Centennial Initiative.'' We think that education in the parks 
is one of those programs that has taken a very large hit over 
the last few years.
    However, we believe that this section glaringly omits a 
Cultural Resource Program Centennial Initiative. It is 
important to reflect that over 60 percent of the 391 units of 
the National Park System were set aside by Congress and the 
president to preserve our nation's cultural heritage resources. 
Moreover, 100 percent of all National Park Service areas have 
cultural resource elements found in them that require 
management and sometimes protection consistent with the law and 
the mission of the National Park Service.
    The National Park Service cultural heritage 
responsibilities are fully equal in status and stature to the 
National Park Service's natural science and conservation 
mandates and need to be properly recognized as such.
    The National Park Service leads the Nation and works with 
citizens, sister Federal agencies, and local state and tribal 
governments to preserve the nation's heritage through such 
well-known programs as the National Heritage Areas, the 
National Register of Historic Places, Natural and National 
Historic Landmarks, Historic American Buildings Survey, and 
through a number of Federal historic tax credits programs that 
provide a wide variety of granting and assistance programs.
    All of these cultural heritage programs must not be 
precluded from consideration for receiving support through the 
Centennial Fund, nor should the protection of the nation's 
cultural heritage be so narrowly construed that it represents 
only old historic buildings.
    Assuming that the Line Item Construction program will cover 
many of the majority of the work required in cultural resource 
management neglects the reality that maintenance of historic 
structures is only one small aspect, although a costly one, of 
what is required under the law to care for the cultural 
resources that the NPS is responsible for.
    I would also like to comment, just briefly, on the 
partnership element. While we strongly believe in the concept 
of philanthropic support to the National Parks, and we note the 
huge values and benefits accrued to the National Park System 
since its inception, we have been very skeptical of the 
administration's proposed efforts to provide additional funding 
through a matching provision in the proposed legislation.
    Given what we have all witnessed in the past decade or so 
relative to the increase in greed in the corporate sector and 
declining ethical behaviors in both corporate and government 
officials, it is hard not to be suspicious about the motives of 
some giving organizations, and I am not trying to cast broad 
aspersions here, but, nonetheless, there is an incentive, both 
on the commercial side and on the part of park managers 
sometimes, to make up for appropriations that are not really 
there that cause us some concern. We would urge some very 
serious caution in how that is administered and how it has 
moved forward.
    That pretty much concludes my comments here, Mr. Chairman. 
Again, thank you for inviting us. I have submitted my written 
statement for the record, and I would be happy to answer any 
questions.
    [The prepared statement of Mr. Wade follows:]

     Statement of John W. ``Bill'' Wade, Chair, Executive Council, 
              Coalition of National Park Service Retirees

    Mr. Chairman and other distinguished Members of the Subcommittee, 
thank you for holding this hearing and thank you for inviting me to 
express my views, and the views of our Coalition of National Park 
Service Retirees on the important topic of managing our nation's 
national parks. I retired just over ten years ago from the National 
Park Service after a 32-year career, including serving the last nine 
years of that career as the Superintendent of Shenandoah National Park. 
I am now the Chair of the Executive Council of the Coalition of 
National Park Service Retirees.
    The Coalition now consists of 600 individuals, all former employees 
of the National Park Service, with more joining us almost daily. 
Together we bring to this hearing over 17,000 years of accumulated 
experience. Many of us were senior leaders and many received awards for 
stewardship of our country's natural and cultural resources. As 
rangers, executives, park managers, biologists, historians, 
interpreters, planners and specialists in other disciplines, we devoted 
our professional lives to maintaining and protecting the National Parks 
for the benefit of all Americans--those now living and those yet to be 
born. In our personal lives we come from a broad spectrum of political 
affiliations and we count among our members seven former Directors or 
Deputy Directors of the National Park Service, over twenty-five former 
Regional Directors or Deputy Regional Directors, over thirty former 
Associate or Assistant Directors and over one hundred and thirty former 
Park Superintendents or Assistant Superintendents.
    We strongly support H.R. 3094, the ``National Park Centennial Fund 
Act.'' We believe this Bill is much better than the Bush 
Administration's proposed Centennial Initiative to increase NPS funding 
over the next 10 years that is incorporated in H.R. 2529. We applaud 
the efforts of Chairman Rahall and Chairman Grijalva for their vision 
and efforts.
    Because we think it is a much better Bill, I will confine my 
comments to H.R. 3094. We offer the following thoughts on Sections of 
that Bill that might need attention or refinement.
Section 3: National Park Centennial Fund
    We support and applaud this Bill's intent to create a dedicated 
funding source for the Centennial Fund for each fiscal year from 2008 
through 2017, a notable difference from the Bush Administration's 
proposal included in H.R. 2959. While we strongly believe in the 
concept of philanthropic support to National Parks, and note the huge 
values and benefits accrued to the National Park System since its 
inception, we have been very skeptical of the Administration's proposed 
efforts to generate additional funding by including a matching 
provision in the proposed legislation. Given what we've all witnessed 
over the past decade or so relative to the increase in greed in the 
corporate sector and declining ethical behaviors by both corporate and 
government officials, it is hard not to be suspicious about the motives 
of the ``giving'' organizations--especially commercial and some 
special-interest organizations--and the quid pro quo expected from, and 
sometimes provided by the recipient organizations. When coupled with 
the increased pressures placed on park managers to take advantage of 
the incentives offered by private money to offset declining budgets, we 
are very concerned about keeping national parks public and national.
Section 4: Program Allocation
    Developing the list of proposals as prescribed in this section is 
guaranteed to further stress an already cumbersome and lengthy project 
development and review process prescribed for the NPS, unless short but 
feasible deadlines are specified. As an example, review and approval of 
projects, authorized by the Fee Demonstration Program are frequently 
locked in years of review and approval through the mandated Development 
Advisory Board process. This leaves important fee money sitting in 
accounts, often for several years, awaiting programmatic approval and 
contributing to the perception that the fee money is not being 
effectively applied to projects in accordance with promises that have 
been made. Adding another $100,000,000 to the annual process of project 
review and approval will challenge the system even more severely and 
could result in increasing years between nomination of the project and 
completion of it. We believe that careful project development and 
review is a critical component of a successful project. Congress has 
made its intentions clear that the NPS must exercise its expertise and 
due diligence to also assure funds are carefully spent. We know that 
Congress wants to see results, and the parks need results--during the 
birthday decade of the National Park Service, not the decade after it! 
But, Congress must also accommodate its expectations of project 
accomplishment with the Service's capacity to efficiently conduct the 
required project oversight. It is our opinion, and that of many 
national park professionals, that the current system and capacity of 
the NPS to carry out increased project review and approvals of an 
additional $100 million dollar program is compromised.
A ``Cultural Resource Program Centennial Initiative'' is Needed
    We appreciate the identification of the ``National Park Centennial 
Initiatives specified in subsection (b) of this Section, and especially 
the emphasis prescribed in subsection (d) for the ``Education in Parks 
Centennial Initiative.'' However, we believe this Section glaringly 
omits a ``Cultural Resource Program Centennial Initiative.'' It is 
important to reflect that over 60% of the three hundred and ninety-one 
units of the national park system were set aside by Congress and 
presidents to preserve our nation's cultural heritage resources. 
Moreover, 100% of all our national park areas have cultural resource 
elements found in them that require management, and sometimes 
protection, consistent with law and the mission of the National Park 
Service.
    National Park Service cultural heritage responsibilities are fully 
equal in status and stature to the National Park Service's natural 
science and conservation mandates and need to be properly recognized as 
such. Our National Park System tells the full American story from the 
First Americans, to the landing of Christopher Columbus to recent sites 
of the civil rights struggles. The NPS preserves for the American 
public the site of Jamestown, the first permanent English settlement in 
the New World, most of the major battle sites of the American 
Revolution and the Civil War, the homes of many presidents, sites 
associated with the Alaska Gold Rush, Japanese internment camps during 
World War II, and the story of the struggle for equality for women. The 
NPS holds all these in trust for the American people. These places, and 
the unsurpassed museum collections associated with them, tell the 
authentic, real American story spanning thousands of years. They are 
the best American History classrooms in existence. They are authentic 
places in an increasingly inauthentic world.
    The National Park Service leads our nation and works with citizens, 
sister federal agencies, and local, State, and tribal governments to 
preserve the nation's heritage through such well known programs as 
National Heritage Areas, the National Register of Historic Places, 
National Natural and Historic Landmarks, Historic American Buildings 
Survey and through a federal historic tax credits program and a wide 
variety of granting and assistance programs that touch every state and 
thousands of local and tribal governments each year.
    All of these cultural heritage programs, in parks and external to 
parks, must not be precluded from consideration of receiving support 
through the Centennial Fund. Nor should the protection of our nation's 
cultural heritage be so narrowly construed that it represents only 
``old historic buildings.'' Assuming that the Line Item Construction 
program will cover the majority of work required in cultural resource 
management neglects the reality that maintenance of historic structures 
is only one small aspect (although a costly one) of what is required 
under law to care for the cultural resources the NPS is responsible 
for. Even these historic structures will not fare well in direct 
competition within the same category with high-dollar priorities such 
as new visitor centers and needed infrastructure projects.
    There is evidence that cultural resources program management in the 
NPS has suffered serious problems and has declined in effectiveness 
over the past several years. To ignore the 115,000,000 objects, 67,000 
archeological sites and 26,000 historic structures managed by the NPS 
by not according them the same level of importance in the Centennial 
Fund as the natural resources managed by the NPS is likely to compound 
the already serious problems.
    It is essential that a Cultural Resource Management component be 
added to the initiatives proposed in this legislation. Similarly, the 
distribution of funds for these initiatives proposed in this section 
would need to be adjusted accordingly to reflect the addition of a 
Cultural Resource Management Initiative certainly as equitable as the 
other 10% Initiative Allocations. In subsection (d), we suggest 
reducing the allocation to the ``Line Item Construction Program'' to 
20% to allow a ``Cultural Resources Protection Centennial Initiative'' 
to be added with an allocation of 10%.
``Diversity in Parks Centennial Initiative''
    We believe the language in the ``Diversity in Parks Centennial 
Initiative'' might benefit from some refinement. For instance, the 
present language in 2(B)(ii) requires that each diversity proposal 
shall be designed ``to make'' NPS employees ``and'' visitors to System 
units ``reflect the diversity of the population'' of the U.S. This is a 
very stringent test if every proposal has to meet both, and to ``make'' 
that result possible ignores local and regional demographics in favor 
of national demographics that, in fact, may not be representative at 
all. The report itself might benefit from having a FACA-exempt advisory 
committee.
``Environmental Leadership Centennial Initiative''
    We note somewhat of the same problem with the ``Environmental 
Leadership Centennial Initiative.'' It also requires that each proposal 
must ``reduce harmful emissions, conserve energy and water and reduce 
solid waste production...'' What about proposals that meet only one or 
two of these criteria, but not all?
``Line Item Construction''
    We agree that ``Line Item Construction'' proposals should be 
consistent with approved park planning documents. However, we again 
alert you to the backlog of just getting ``administrative approvals in 
place before or during the fiscal year for which funds are sought'' 
(see previous comments). Excluding environmental compliance and project 
review and approval from funding consideration neglects the reality 
that most of any project's effort is ``up-front'' in planning, design, 
environmental and cultural compliance, and project review--all of which 
is constrained by time and funding.
    Frankly, we would not be disturbed if even smaller amounts of this 
``extra'' Centennial money were to go to bricks and mortar, and even 
more of it to creating and imbedding new operating habits geared toward 
resource protection, communication of park values, relating to emerging 
population dynamics, and providing quality lifelong learning for 
employees thereby continuously raising professional standards.
Section 5: Partnerships
    There is a long and rich tradition of philanthropic and non-profit 
partnership in managing and protecting national parks--as long as the 
history of the National Park Service itself. Clarification is needed to 
better articulate the values that a constructive philanthropic effort 
can bring to the table in support of this legislation. While this 
legislation rightly focuses on assuring a dedicated funding source for 
the Fund, it does little to seriously encourage philanthropic and 
Foundation efforts that can offer wonderful and powerful additive 
``margins of excellence'' to the NPS. We believe the ``No Contingency'' 
clause is positive by not precluding projects simply because the 
originating park does not have a ``cost-share partner.'' However, 
should the proposal have such a partner and be able to meet all the 
criteria and provide the ``margin of excellence'' a philanthropic 
partner can provide, we believe it should strengthen consideration of 
the proposal and offer dramatic proof of what federal and private 
investment can bring to our parks. We urge the Committee to include in 
this legislation an expectation that all bona fide philanthropic and 
other non-profit partners, including the National Park Foundation, 
friends groups of all sizes and capabilities and the complete range of 
cooperating associations and educational and programmatic non-profit 
partners, be equally able to contribute to the long term benefit of the 
parks in our society. Doing so will reinforce the goal of using the 
Centennial decade as a way to prepare the national parks and the 
National Park Service for its second century to be as valuable to the 
nation and the world as its first century has been. Again, we make the 
point that philanthropic partnership must not replace inherent federal 
responsibility of managing and funding our National Park System, but 
can offer a meaningful and deep valuable addition to the federal 
effort, and can serve to further connect Americans to their national 
parks and the heritage they preserve for all of us, our children and 
grandchildren.
Section 6: Maintenance of Effort
    We appreciate the language in this Section that the Fund ``shall 
supplement rather than replace annual expenditures by the NPS....'' 
However, we recommend that the same language be applied to the 
Congressional Appropriations process and to the Administration Budget 
process where language is frequently inserted to take back what has 
been given, or to assess costs against an appropriation, or to offset 
one appropriation with another. As you know, in practical effect this 
may be determined as much by the degree to which Appropriations 
Committee members support the intent as by the wording of the 
legislation. We recommend extraordinary steps be taken to obtain the 
understanding and support of Appropriations Committee members for the 
intent behind the legislation, and we offer our assistance in doing so.
Summary
    In closing, we believe that this legislation represents an 
important step forward toward trying to solve the funding problems of 
our National Park System. The chronic under-funding of the National 
Park Service has been well-documented by the National Parks 
Conservation Association (NPCA), the Coalition of National Park 
Retirees, and the NPS itself. A decade ago, the National Park Service 
prepared studies of its present abilities to manage the natural and 
cultural resources entrusted to it. The reports determined that it 
employed only 25% of the staff needed to provide professional attention 
to natural resources and only 22% of the staff needed to care for its 
cultural resources! Practically speaking, this means that the national 
parks have been operating on only two-thirds the funding required to 
preserve, research, and interpret to the visiting public their 
collection of incomparable resources. Importantly, a decade later the 
Business Plans undertaken in our park units have identified the same 
types of shortfalls. Finally, the NPS has been struggling for years to 
address the so-called ``maintenance backlog,'' the funding required to 
attend to the deferred maintenance of visitor centers and other 
administrative buildings, roads and trails, housing, water and 
wastewater systems, as well as archeological sites and monuments. The 
National Park Service estimates its backlog at $8 billion. By any 
measure, the $2.4 billion in President Bush's 2008 budget proposal, 
while generous when compared with recent NPS budgets, will not make 
much of a dent in this monumental shortfall.
    The National Park Service should not only be the leading natural 
and cultural heritage preservation agency in the country, it should set 
the ``gold standard'' for the preservation of natural and cultural 
resources throughout the country and the world. The Centennial of the 
National Park Service presents the nation with an opportunity to attend 
properly to the needs of an agency that preserves reminders of who we 
are as a people and where we want to go as a community.
    ALMOST A HUNDRED YEARS AGO, just before the creation of the 
National Park Service, the British ambassador to the United States, 
James Bryce, spoke to the American Civic Association on the subject of 
national parks and their importance to society. With great simplicity, 
he acknowledged the obligation to ``carefully guard what we have got.'' 
``We are the trustees for the future,'' he charged. ``We are not here 
for ourselves alone. All these gifts were not given to us to be used by 
one generation, or with the thought of one generation only before our 
minds. We are the heirs of those who have gone before, and charged with 
the duty we owe to those who come after....''
    As this country begins to think about the Centennial of the 
National Park Service, it is appropriate that we have a serious 
conversation about parks and their value to our society, and the role 
we want parks and the National Park Service to play in the future. What 
is our obligation, as the trustees of these magnificent places, to our 
children and their children? The upcoming Centennial provides an 
opportunity to think creatively about the kind of National Park Service 
we want for the next century and envision systemic changes for its 
betterment and ours.
    We believe this legislation will be one of the many decisions and 
actions that must be taken during this Centennial to assure an 
appropriate future for our National Park System. We look forward to 
working with all partners to assure a bright future.
                                 ______
                                 
    Mr. Grijalva. Thank you. Let me thank all of the panel in 
its entirety. Let me begin with Mr. Cipolla.
    Given the experience you have raising money for our park 
system in the private sector, we are coming upon the hundredth 
anniversary, this important anniversary, plus a renewed 
commitment, on the part of Congress and the administration, to 
our park system, which we are talking about additional funding 
as part of that renewed commitment.
    Do you think these two factors, the funding equation that 
we are talking about plus the anniversary, are going to provide 
you with enough leverage to be able to actively and 
successfully raise money in the private sector as we approach 
these dates?
    Mr. Cipolla. We do appear to be in an environment of more 
momentum for National Park philanthropy. Certainly, the 
conversation around 2016, a lot of the work that is being done 
in the Landscaper Friends groups, friends groups, of which 
there are 160 across the country, are coming into their own. 
They are maturing as charitable organizations. They are doing 
better work each and every year. The National Park Foundation, 
as well, has been investing and is maturing as an organization 
to do better work.
    So I do think that we are entering a very promising era for 
park philanthropy. The leverage of matching money, and matching 
money, of course, is very common in charitable work, the 
leverage of matching money, as a tool, would further encourage 
and accelerate charitable giving as well.
    Mr. Grijalva. The matching requirement, you feel, is 
absolutely necessary.
    Mr. Cipolla. Well, charitable giving is increasing now to 
the National Parks and, I think, will continue to do so. 
Matching money, again, which is very, very common, will 
accelerate giving. It just will. To have that kind of leverage 
and the awareness around the potential of Federal funds to 
complement charitable dollars will have an impact. Giving will 
increase without it, but it will go faster with it.
    Mr. Grijalva. Thank you. Mr. Kiedaisch, thank you very 
much. Going back to the mountain bike example that you gave 
relative to the relevance of what our parks need to be doing in 
the future, usually those management plans, as to hiking trail, 
equestrian, mountain bike, those are management resource 
decisions that are made at that unit.
    So my question is, there is no implication in your comments 
that the private sector should have some role in those resource 
decisions or in the process of environmental compliance.
    Mr. Kiedaisch. No, absolutely not. In fact, it is very 
important that those decisions are made in the neighborhood by 
the park because there will be different opportunities with 
different venues that should be appropriate.
    Mr. Grijalva. Is the Coleman Company presently a donor to 
the National Park Service?
    Mr. Kiedaisch. Not presently, sir. We are donors to many 
others. One example would be the Appalachian Mountain Club. We 
made a commitment to fully fund their Trails 2010 project, 
which is to rebuild the trails the Appalachian Mountain Club is 
responsible for, for the trail from Connecticut to Maine, and, 
indeed, we have done that.
    Relative to the concern about rulemaking and standards and 
commercializing the parks, you will not find a Coleman placard 
anywhere, you will not find a press release anywhere to that, 
and, in fact----
    Mr. Grijalva. That is because we are all carrying them into 
the park.
    Mr. Kiedaisch. They are on their backpacks, yes. Mr. 
Chairman, there you are correct, and there is where the 
partnership works. The rising tide will help pay this back to 
the corporation.
    Mr. Grijalva. Thank you very much. I am sure Mr. Cipolla 
will give you his card, as he actively recruits donors as we 
approach the centennial. Thank you.
    Mr. Kiernan, we have heard a couple of times that 
visitation is flat or declining over the last decade. Speak to 
us about what is impacting this trend and the factors involved 
in it and some of the things that are being talked about: 
education, outreach, professional development. Would they, or 
would they not, help begin the reversal of that trend?
    Mr. Kiernan. Let me back up for one moment. It is our 
understanding that visitation is variable among the different 
parks. By that, I mean, some parks have seen significant 
increases over the years. Some have been flat and some 
declining.
    So one observation is there are very different reasons 
among different parks as to why the visitation may be 
declining, which, from our viewpoint, then means the strategy 
for enhancing visitation in those different parks is likely 
very different based on the park. So that is one observation.
    We would submit that a significant part of it has been the 
long-term funding, operating, funding shortfalls in the parks, 
where the parks have had to either cut back on the programming, 
cut back on the ranger-led tours. All of that matters to kids, 
families coming into the park. If they do not have the 
activities where a ranger is able to teach them, inspire them, 
take them for a walk, likely their visit will be shorter to the 
park, or they will not return.
    So we think funding is a problem. Clearly, in some of those 
parks where the facilities have not been kept up, where the 
bathrooms have not been as clean as they should be, that has 
been a detriment to some folks coming. We do think, as you, I 
believe, said, that increasing the operating budget so that the 
park personnel are better trained, have the resources they need 
to provide the educational experience; that is all part of a 
multidimensional solution in enhancing visitation. We do see 
this 10-year window leading up to the centennial and this whole 
philanthropic dimension as all part of the solution.
    Mr. Grijalva. Thank you very much. Let me acknowledge 
something you said and also Mr. Wade said, and that is about 
cultural resource protection being part and parcel. I think 
that that is an excellent observation and something that we 
will look at very, very carefully. I appreciate it.
    Mr. Wade, you mentioned that the National Park Service has 
difficulty meeting its responsibilities, especially around the 
environmental-compliance process, I think, before a project can 
go forward or be put into effect.
    The centennial bill, which would pump significant amounts 
of new resources into the process; is that going to help or 
hurt the current situation?
    Mr. Wade. Well, it is one of those things that we are 
concerned about, Mr. Chairman, because we know of examples 
right now where, with the ongoing construction funding that has 
been provided, sometimes as meager as it is over the last few 
years, there are still examples where, you know, approvals get 
bogged down in both the compliance and the priority setting 
within the National Park Service and all of those sorts of 
things.
    Now, to come along and add another dimension of funding, 
either through the increase that you propose or through the 
matching or both, is just going to simply add a tremendous 
amount of workload there that I think certainly the National 
Park Service is aware of, but I think the Congress and the 
Committee needs to be aware of also.
    There may need to be some provisions thought about--I do 
not have the answer specifically--in the legislation that would 
at least recognize that, if not try to figure out some 
mechanisms by which that can be enhanced without compromising 
the environmental compliance and some of those things.
    Mr. Grijalva. Let me turn to Mr. Bishop for any questions 
he may have. Sir?
    Mr. Bishop. Thank you. Mr. Cipolla--did I pronounce that 
properly, or at least close enough for government work?--when 
you reach out to the philanthropic community for donations, 
what challenges do you face that other nonprofits would not?
    Mr. Cipolla. Certainly that we are raising money for 
projects for assets, for places, that receive Federal support. 
So the charitable community wants to understand that its 
dollars are really being used in an appropriate way--we 
sometimes refer to it as ``margin of excellence''--where their 
dollars and commitments are bringing value to the parks in 
addition to the Federal government's responsibility to those 
parks.
    Mr. Bishop. OK. Thank you. Mr. Kiedaisch--is that right?
    Mr. Kiedaisch. That is correct.
    Mr. Bishop. OK. What is being done in state park systems 
that could be replicated in the National Park System?
    Mr. Kiedaisch. That is a great question. In the State of 
Connecticut, the director of parks and recreation there 
actually initiated a program where people go into a library, 
their local library, and check out a card that will give them 
access to the state parks, and they increased visitation 
tremendously. While that was state government doing that, that 
is a good example of how the private sector can be the 
communication and distribution vehicle.
    For example, Wal-Mart reaches 92 percent of all American 
households. A kiosk inside their store communicating the 
benefits and reasons why people should be visiting these parks 
and building the stepping stones, from the couch to the back 
yard to the state park to the National Parks, is doable there.
    You can reach different consumer segments by the different 
channels of retail. An REI could be a good example of reaching 
more avid mountain climbers that would get access to the parks 
and communicate that way as well.
    Mr. Bishop. Why is it important for the public to have 
ownership in the centennial effort?
    Mr. Kiedaisch. I think it is important always to engage the 
public in these public properties in order for them to have 
stewardship and pride in it. If we do not engage them, they do 
not become part of it, and they will not protect it.
    It also is important to engage corporate America because 
they are going to benefit from it, and, as I said in my 
testimony and in my written testimony, I do not believe that 
the American taxpayers, the Federal government, should have to 
go this alone.
    If you go to the insurance industries and say, ``What does 
it mean to you if we can reduce childhood diabetes by one 
percent?'' Their actuaries will give you a number very fast, 
and they will be very willing to support whatever initiative 
would increase activity of young adults and children to reduce 
that onset of diabetes.
    Mr. Bishop. I have talked about individual contributions. 
That would be probably the same effect and not have the same 
desire to put ``Coleman'' all over everything to do it.
    Mr. Kiedaisch. No. Actually, in my experience, I served on 
the United States Ski Team Foundation for eight years. We 
actually put estate planning in, and it allowed people to 
donate, in memory of themselves and their family, to support 
various programs, and it was overfunded every single year. In 
fact, we raised, for the U.S. Ski Team, upwards of $25 million 
a year, and the parties interested in the ski team are for 
smaller than the audience that we have at hand here for the 
National Parks.
    Mr. Bishop. Thank you. One last question for you. You 
discussed the situation of your visitation to Shenandoah 
National Park. From a business perspective, how do the problems 
like that reverberate and damage visitation throughout the 
entire park system?
    Mr. Kiedaisch. Well, this would come from my experience in 
running a resort. I ran Stowe Ski Resort for eight years, and 
the skier visit was flat for many, many years, and until the 
ski resorts changed their venues and brought services that the 
consumers were looking for--better dining or snowboard parks 
and music festivals in the summertime--the venues were going 
dry on the vine.
    So the importance here is that you need to make sure that 
the venue is relevant to today's consumer. I am not suggesting 
turning them upside down. They need to preserve what the 
original heritage was of these parks.
    Mountain biking is a great example. It is compatible in 
these parks. We have vast acreage, and we can build trails that 
would be compatible for that and have alternative trails for 
equestrian as well. If we do not have those venues, we will not 
attract the young people, and visitation will continue to go 
down, in my belief.
    Mr. Bishop. I know that is consistent with what Director 
Bomar was talking about in her testimony as well, and her 
success rate she had in those areas for which she had direct 
control before becoming director of the entire Park Service.
    Mr. Kiernan, I just have a question about the disclosure 
statement that you sent to us. I realize that you noted that, 
in the last three years, you have received grants from the 
Interior Department. Have you any pending lawsuit or lawsuits 
in the last three years with the Interior Department?
    Mr. Kiernan. I would need to check with staff. Off the top 
of my head, I am not sure. So we will check with staff and get 
back to you.
    Mr. Bishop. Thank you. Mr. Wade, I will give you one last 
question, and then I am done. What commercial fees do you think 
should be raised to offset?
    Mr. Wade. Congressman Bishop, I do not really know. I will 
admit that I have not personally looked into the variety of 
fees that are out there. I do certainly believe that to include 
concessions in that mix is going to turn out to be a problem, 
in the sense that any raises in concession fees are going to be 
turned right back around in terms of costs to the visitors, and 
that, then, in turn, is likely to work against the visitation 
issue that you and others have brought up.
    When it gets into the other commercial fees that are 
involved in the other bureaus within the Department, I would 
have to do some homework to answer your question specifically 
because I just do not know about all of those.
    Mr. Bishop. All right. Thank you. I will yield back.
    Mr. Grijalva. Thank you very much, gentlemen. I appreciate 
your testimony. It was very informative, and as we go through 
this process, your ideas and your comments will be welcomed. 
Thank you very much, and the meeting is adjourned.
    [Whereupon, at 12:56 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
